<html>
<title> - H.R. 2445, TO RECOGNIZE ALEXANDER CREEK AS A NATIVE VILLAGE; H.R. 3350, ALASKA NATIVE VETERANS LAND ALLOTMENT EQUITY ACT; H.R. 3351, NATIVE AMERICAN CHALLENGE DEMONSTRATION PROJECT ACT OF 2007; AND H.R. 3560, SOUTHEAST ALASKA NATIVE LAND ENTITLEMENT FINALIZATION ACT.</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
  H.R. 2445, TO RECOGNIZE ALEXANDER CREEK AS A NATIVE VILLAGE; H.R. 
  3350, ALASKA NATIVE VETERANS LAND ALLOTMENT EQUITY ACT; H.R. 3351, 
NATIVE AMERICAN CHALLENGE DEMONSTRATION PROJECT ACT OF 2007; AND H.R. 
   3560, SOUTHEAST ALASKA NATIVE LAND ENTITLEMENT FINALIZATION ACT.

=======================================================================


                          LEGISLATIVE HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                      Wednesday, November 14, 2007

                               __________

                           Serial No. 110-55

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov






                     U.S. GOVERNMENT PRINTING OFFICE

38-971 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Bobby Jindal, Louisiana
Dan Boren, Oklahoma                  Louie Gohmert, Texas
John P. Sarbanes, Maryland           Tom Cole, Oklahoma
George Miller, California            Rob Bishop, Utah
Edward J. Markey, Massachusetts      Bill Shuster, Pennsylvania
Peter A. DeFazio, Oregon             Dean Heller, Nevada
Maurice D. Hinchey, New York         Bill Sali, Idaho
Patrick J. Kennedy, Rhode Island     Doug Lamborn, Colorado
Ron Kind, Wisconsin                  Mary Fallin, Oklahoma
Lois Capps, California               Vacancy
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, November 14, 2007.....................     1

Statement of Members:
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................     2
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Angapak, Nelson N., Sr., Vice President, Alaska Federation of 
      Natives....................................................    29
        Prepared statement on H.R. 3350..........................    30
    Erulkar, Ben, Deputy Assistant Secretary for Economic 
      Development, Economic Development Administration, U.S. 
      Department of Commerce.....................................    12
        Prepared statement on H.R. 3351..........................    14
    Kitka, Julie E., President, Alaska Federation of Natives.....    24
        Prepared statement on H.R. 3351..........................    27
    Lindekugel, Buck, Conservation Director, Southeast Alaska 
      Conservation Council.......................................    44
        Prepared statement on H.R. 3560..........................    45
    Mallott, Byron, Board Member, Sealaska Corporation...........    39
        Prepared statement on H.R. 3560..........................    40
    Nedd, Michael, Assistant Director, Minerals, Realty and 
      Resource Protection, Bureau of Land Management, U.S. 
      Department of the Interior.................................     3
        Prepared statement on H.R. 2445, H.R. 3350, H.R. 3351, 
          and H.R. 3560..........................................     5
    Simpson, Melissa, Deputy Under Secretary, Natural Resources 
      and Environment, U.S. Department of Agriculture............    10
        Prepared statement on H.R. 3560..........................    11
    Thompson, Stephanie S., President, Alexander Creek 
      Incorporated...............................................    20
        Prepared statement on H.R. 2445..........................    22

Additional materials supplied:
    List of documents submitted for the record which have been 
      retained in the Committee's official files.................    59


  LEGISLATIVE HEARING ON H.R. 2445, TO AMEND THE ALASKA NATIVE CLAIMS 
 SETTLEMENT ACT TO RECOGNIZE ALEXANDER CREEK AS A NATIVE VILLAGE, AND 
   FOR OTHER PURPOSES; H.R. 3350, TO AMEND THE ALASKA NATIVE CLAIMS 
 SETTLEMENT ACT TO PROVIDE FOR EQUITABLE ALLOTMENT OF LANDS TO ALASKA 

NATIVE VETERANS. ``ALASKA NATIVE VETERANS LAND ALLOTMENT EQUITY ACT''; 
              H.R. 3351, TO ADAPT THE LESSONS OF FOREIGN 
 AID TO UNDERDEVELOPED ECONOMIES TO THE PROVISION OF FEDERAL ECONOMIC 
  DEVELOPMENT ASSISTANCE TO SIMILARLY SITUATED REMOTE NATIVE AMERICAN 
   COMMUNITIES, AND FOR OTHER PURPOSES. ``NATIVE AMERICAN CHALLENGE 
DEMONSTRATION PROJECT ACT OF 2007''; AND H.R. 3560, TO PROVIDE FOR THE 
 COMPLETION OF CERTAIN LAND SELECTIONS UNDER THE ALASKA NATIVE CLAIMS 
SETTLEMENT ACT, AND FOR OTHER PURPOSES. ``SOUTHEAST ALASKA NATIVE LAND 
                    ENTITLEMENT FINALIZATION ACT.''

                              ----------                              


                      Wednesday, November 14, 2007

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 11:05 a.m. in Room 
1324, Longworth House Office Building, Hon. Nick J. Rahall, II 
[Chairman of the Committee] presiding.
    Present: Representatives Rahall, Young and Faleomavaega.

STATEMENT OF THE HONORABLE NICK J. RAHALL, II, A REPRESENTATIVE 
          IN CONGRESS FROM THE STATE OF WEST VIRGINIA

    The Chairman. The Committee on Natural Resources will come 
to order.
    Alaska Day is a legal holiday in the State of Alaska 
observed on October 18. Today is no holiday the last time I 
checked, but it is Alaska Bill Day here in the Committee on 
Natural Resources.
    We have before us four bills which have been sponsored by 
the gentleman from Alaska, the Ranking Member, Don Young: H.R. 
2445 to amend the Alaska Native Claims Settlement Act to 
recognize Alexander Creek as a Native village; H.R. 3350, the 
Alaska Native Veterans Land Allotment Equity Act; H.R. 3351, 
the Native American Challenge Demonstration Project Act; and 
H.R. 3560, the Southeast Alaska Land Entitlement Finalization 
Act.
    At the outset I would like to thank all of the witnesses, 
especially those who have traveled so far from Alaska to be 
with us today.
    I am sure these are all good bills, at least in the eyes of 
the gentlemen to my right, and I will now recognize him for any 
opening comments he wishes to make.

   STATEMENT OF THE HONORABLE DON YOUNG, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ALASKA

    Mr. Young. I thank the Chairman, and I do thank you for 
holding these hearings. I hope that when these hearings are 
over that you will see that they are good bills too. That is 
what witnesses are all about.
    The Chairman. That is right.
    Mr. Young. Again, thank you, Mr. Chairman, for hearing 
these four bills. You have covered H.R. 2445, the Alexander 
Creek recognition bill; H.R. 3350, the Alaska Native Claims 
Settlement Act for the veterans that fought in the Vietnam War 
and were not allowed to have the chance to choose their 
allotment before it was closed off; the Challenge bill, H.R. 
3351--they want to develop that for the Alaska Natives and 
other natives around the United States; and the Southeast 
Regional Corporation and their section of lands. It is long 
overdue. The Alaska Native Lands Claims Act passed in 1971, and 
we are still trying to select and make sure they get their 
lands. I think this is a fair and equitable solution to a 
problem that should be solved.
    I look forward to the witnesses who are before us today. I 
will say, Mr. Chairman, I have had a chance to read some of the 
testimony from some of the agencies, and I am not happy. I 
could go back 30 years ago, and I could duplicate the exact 
same testimony.
    I don't care what Administration it is. It seems like 
agencies have their heads stuck somewhere where I don't really 
want to talk about it right now, but I would suggest 
respectfully it does not make me happy.
    [The prepared statement of Mr. Young follows:]

       Statement of The Honorable Don Young, Ranking Republican, 
                     Committee on Natural Resources

    Mr. Chairman, I want to thank you for holding this hearing today on 
four of my Alaska Native bills.
    H.R. 2445, a bill to amend the Alaska Native Claims Settlement Act 
to recognize the village of Alexander Creek located in Alaska as an 
eligible Native Village pursuant to that Act.
    H.R. 3350, a bill that amends the Alaska Native Claims Settlement 
Act to provide an equitable treatment of Alaska Native Vietnam Veterans 
in their application for land under the Native Allotment Act. 
Approximately, 2,800 Alaska Natives served in the military during the 
Vietnam conflict and therefore did not have an opportunity to apply for 
their Native allotment. In 1998, P.L. 105-276 amended ANCSA to provide 
Alaska Native Vietnam veterans an opportunity to obtain an allotment of 
up to 160 acres of land under the Native Allotment Act.
    H.R. 3351, a bill modeled after the Millennium Challenge Act of 
2003, which developed a model for reducing poverty and promoting 
sustainable economic growth and uses the same principles to enhance the 
long-term job creation and revenue generation potential of Native 
economies by creating investment-favorable climates and increasing 
Native productivity. It will also administer Federal economic 
development assistance in a new way to promote economic growth, 
eliminate poverty, and strengthen good governance, entrepreneurship, 
and investment in Native communities.
    H.R. 3560, a bill which will address the inequitable treatment of 
the Native Regional Corporation for Southeast Alaska--Sealaska 
Corporation--``by allowing it to select its remaining land entitlement 
under Section 14 of the Alaska Native Claims Settlement Act from 
designated federal land in Southeast Alaska. Southeast Alaska Native 
Corporation has waited 36 years to receive conveyance of their full 
land entitlement, and this bill will expedite the process.
    Again, thank you Mr. Chairman for holding this hearing and I look 
forward to hearing from my Alaska Native witnesses on these important 
bills.
                                 ______
                                 
    The Chairman. I wish we could go back and duplicate you.
    Mr. Young. If you would like to do that, you couldn't put 
up with 30 years of me. I will tell you.
    The Chairman. You are through? OK. Thank you, Mr. Young.
    Our first witness today is Mr. Michael Nedd from the Bureau 
of Land Management at the Department of Interior. As with all 
witnesses today, we do have your prepared statements, and they 
will be inserted in the record as if actually read. You are 
encouraged to summarize or proceed in whatever manner you wish.
    Mr. Nedd?

  STATEMENT OF MICHAEL NEDD, ASSISTANT DIRECTOR FOR MINERALS, 
REALTY AND RESOURCE PROTECTION, BUREAU OF LAND MANAGEMENT, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Nedd. Good morning, Mr. Chairman.
    The Chairman. In consideration of the fact that your 
testimony covers all four bills that we are considering today, 
hopefully you will feel free to extend your oral remarks up to 
10 minutes.
    Mr. Nedd. Thank you, Mr. Chairman.
    Good morning, Mr. Chairman and Members of the Committee. 
Thank you for inviting me to provide the views of the 
Department of the Interior on H.R. 2445, the Alexander Creek 
Village Recognition Act; H.R. 3350, the Alaska Native Veterans 
Land Allotment Equity Act; and H.R. 3560, the Southeast Alaska 
Native Land Entitlement Finalization Act.
    You have also asked the Department to provide its view on 
H.R. 3351, the Native American Challenge Demonstration Project 
Act of 2007. As this legislation would establish a new program 
within the Department of Commerce, the Department defers to 
Commerce as to its position on the legislation and 
administration of the program. At your request, however, we are 
providing a brief overview on economic development in Indian 
Country.
    With me today is Mr. Bob Middleton, Director of the Office 
of Indian Energy and Economic Development, Office of the 
Assistant Secretary, Indian Affairs, who testified before the 
Committee at its September 19, 2007, hearing on diversifying 
Native economics. Dr. Middleton can answer questions on H.R. 
3351.
    My statement addresses the three bills that would be 
administered by the Department of Interior.
    H.R. 2445, the Alexander Creek Village Recognition Act. We 
understand the continued desire of Alexander Creek, Inc. to be 
recognized as a Native village. H.R. 2445 would legislatively 
designate the Alexander Creek Native group as a Native village 
under the provision of the Alaska Native Claims Settlement Act, 
ANCSA.
    The redesignation would entitle Alexander Creek to appraise 
over 61,000 acres of land at the current market value, with the 
amount of the appraised value to be deposited in a Treasury 
account that Alexander Creek would use to acquire land in 
Alaska offered at public sale.
    H.R. 2445 would effectively overturn the stipulated 
agreement that was signed by Alexander Creek in 1979 and 
codified in ANILCA. In this agreement, Alexander Creek withdrew 
its application to be recognized as a village, accepted 
certification as a Native group and agreed that the lands 
conveyed under the 1979 agreement constituted a full and final 
settlement of its land entitlement under ANCSA.
    That settlement allowed the land entitlement process 
throughout south central Alaska's Cook Inlet region to proceed. 
After 27 years, the process is in the late stage of 
implementation. Changing the status of Alexander Creek from a 
Native group to a Native village through H.R. 2445 would 
undermine and disrupt this lengthy and complex land entitlement 
process and would throw into question the finalization of the 
land entitlement claim in south central Alaska. We therefore 
oppose the legislation.
    H.R. 3350, the Alaska Native Veteran Land Allotment Equity 
Act. The Department testified on similar legislation in the 
107th Congress that the bill raises a number of serious policy, 
management and technical concerns and would give rise to new 
issues of fairness with respect to Alaska Native veterans and 
other Alaska Natives.
    H.R. 3350 would allow any Alaska Native veteran or an heir 
to a deceased veteran who served during the period from August 
5, 1964, through May 7, 1975, to select up to two parcels of 
land totaling no more than 160 acres.
    Alaska Native veteran applicants could choose any vacant 
Federal land in the State of Alaska located outside of the 
TransAlaska Pipeline corridor. This includes private lands that 
have already been patented to Native corporations or to the 
State of Alaska.
    H.R. 3350 goes far beyond the original missed opportunity 
rationale and appears to create a bonus program that awards 
land for military service only to certain veterans. By allowing 
certain veterans to choose land that was not available to other 
allotment applicants, H.R. 3350 creates unfairness between 
Alaska Native veterans and Natives who did not serve in the 
military.
    The Department opposes H.R. 3350 because it authorizes new 
allotment claims 36 years after repeal of the 1960 Native 
Allotment Act. H.R. 3350 negates an important compromise 
reached in the passage of the 1998 Act, throws out years of 
adjudication under that Act and disrupts settled land use 
arrangements under ANCSA and ANILCA. This disruption undermines 
the goal of the Alaska Land Transfer Acceleration Act to 
finalize land entitlements.
    H.R. 3560, the Southeast Alaska Native Land Entitlement 
Finalization Act. The Department supports the goals of 
completing ANCSA entitlement as soon as possible so that Alaska 
Native corporations may have the full economic benefit of their 
intended land base. This includes the entitlement due to 
Sealaska.
    However, we do not support H.R. 3560. It creates new 
categories of selection not available to other regional 
corporations. It authorizes the selection of individual small 
parcels, as opposed to larger blocks like the current 
selections, that will likely take longer and be more costly to 
process than Sealaska's current selections.
    Its deadlines could result in compromised title due to 
insufficient time to identify third party interests and 
easements. More significantly, however, we note that ANCSA did 
not allow for selection and conveyance of cultural sites in 
national park system units in Alaska. H.R. 3560, by contrast, 
would allow such selection and conveyance for Sealaska.
    The legislation identifies sites for selection and 
conveyance of Sealaska and includes 12 sites located in Glacier 
Bay National Park and Preserve and one site in Klondike Gold 
Rush National Historical Park.
    As noted above, we support the goals of completing ANCSA 
entitlements as soon as possible and are working hard to ensure 
that process comes to successful conclusion. H.R. 3560 has the 
potential to negatively impact our ability to complete ANCSA 
entitlement not only in southeast Alaska, but across the entire 
state.
    Mr. Chairman, again thank you for the opportunity to 
present this testimony. I will be glad to answer any questions 
that you or other Members of the Committee may have.
    [The prepared statement of Mr. Nedd follows:]

  Statement of Michael Nedd, Assistant Director, Minerals, Realty and 
Resource Protection, Bureau of Land Management, U.S. Department of the 
 Interior, on H.R. 2445, Alexander Creek Village Recognition Act; H.R. 
  3350, Alaska Native Veterans Land Allotment Equity Act; H.R. 3560, 
  Southeast Alaska Native Land Entitlement Finalization Act; and H.R. 
       3351, Native American Challenge Demonstration Project Act

    Mr. Chairman and Members of the Committee, thank you for inviting 
me to provide the Department of the Interior's (Department's) views on 
H.R. 2445, the Alexander Creek Village Recognition Act; H.R. 3350, the 
Alaska Native Veterans Land Allotment Equity Act; and H.R. 3560, the 
Southeast Alaska Native Land Entitlement Finalization Act. You have 
also asked the Department to provide its views on H.R. 3351, the Native 
American Challenge Demonstration Project Act of 2007. As this 
legislation would establish a new program within the Department of 
Commerce, the Department defers to Commerce as to its position on the 
legislation and administration of the program. At your request, 
however, we are providing a brief overview on economic development in 
Indian Country. My statement will begin with the three Alaska bills.
H.R.2445, Alexander Creek Village Recognition Act
    As discussed in more detail below, we understand the continuing 
desire of Alexander Creek, Inc., to be recognized as a Native village. 
However, this legislation would effectively overturn the long-standing 
settlement, codified in statute, which resolved the eligibility of 
Alexander Creek, and would throw into question the finalization of land 
entitlement claims in southcentral Alaska. For these reasons, the 
Department opposes enactment of H.R. 2445.
Background
    Congress enacted the Alaska Native Claims Settlement Act (ANCSA) in 
1971 to resolve aboriginal land claims in Alaska. Through ANCSA, Native 
claims in Alaska were extinguished in exchange for 44 million acres of 
land and $962.5 million in compensation. ANCSA established specific 
entitlements for allocating this settlement among Native-owned regional 
corporations, Native villages and Native groups. Native villages 
(required to have a Native population of 25 or more, as determined by a 
1970 census) received greater entitlements than Native groups. Native 
villages were entitled to a minimum of 69,120 acres from the public 
domain. In contrast, communities determined to have fewer than 25 
Natives could be certified as Native groups and were entitled to a 
maximum of 7,680 acres.
    ANCSA listed nearly 200 Native villages and directed the Secretary 
of the Interior to determine if additional Native communities qualified 
as villages. Alexander Creek was not listed as a village in ANCSA. It 
applied for eligibility as an unlisted village but its application was 
contested by the State of Alaska, the Matanuska-Susitna Borough and 
other parties.
    Thus began a long period of litigation over Alexander Creek's 
eligibility as a Native village that was ultimately resolved in a 
Stipulated Agreement in 1979 and codified in Section 1432 of the Alaska 
National Interest Lands Conservation Act (ANILCA). In signing this 
Stipulated Agreement, Alexander Creek withdrew its application to be 
recognized as a village, accepted certification as a Native group, and 
agreed that the lands conveyed under the 1979 Agreement ``constitute a 
full and final settlement'' of its land entitlement under ANCSA. The 
Department has fulfilled its responsibilities to Alexander Creek under 
the agreement.
H.R. 2445
    H.R. 2445 would legislatively designate the Alexander Creek Native 
group as a Native village under the provisions of the Alaska Native 
Claims Settlement Act (ANCSA). The bill would entitle Alexander Creek 
to the appraised current fair market value of approximately 61,440 
acres it had provisionally selected in the early 1970s, pending the 
outcome of its original application to be recognized as a Native 
village. The appraised value of these lands would determine the amount 
of a Treasury account to be established for Alexander Creek, which 
would use the account to acquire lands in Alaska offered at public 
sale. The bill also directs the Secretary to seek a land exchange with 
the State of Alaska or the Matanuska-Susitna Borough to acquire surface 
estate lands for Alexander Creek near its home area. The bill provides 
a mechanism for reducing the value of the Alexander Creek account for 
lands acquired for Alexander Creek through an exchange.
    H.R. 2445 would overturn the settlement agreement accepted by 
Alexander Creek in 1979 and codified in ANILCA. The resolution of 
Alexander Creek's status as a Native group in ANILCA allowed the land 
entitlement process throughout southcentral Alaska's Cook Inlet region 
to proceed. The process is now in a late stage of implementation. 
Changing the status of Alexander Creek could undercut the basis on 
which village and regional entitlements are addressed, fundamentally 
disrupting this lengthy and complex land entitlement process. H.R. 2445 
would establish a troubling precedent. We therefore oppose the 
legislation.
H.R. 3350, Alaska Native Veterans Land Allotment Equity Act
    H.R. 3350 raises a number of serious policy, management, and 
technical concerns, and it would give rise to new issues of fairness 
with respect to other Alaska Natives and other Vietnam veterans. For 
these reasons, and because H.R. 3350 would authorize a disruptive 
expansion of the Native Allotment program in Alaska, the Department 
opposes this legislation.
Background
    The Native Allotment Act of 1906, as amended, gave the Secretary of 
the Interior authority to convey up to 160 acres of non-mineral land to 
individual Alaska Natives. Altogether about 10,000 Alaska Natives filed 
allotment applications for more than 16,000 parcels. Over 80 percent of 
the applications were filed with the BLM following an extensive 
outreach and assistance program carried out from 1969 through 1971.
    The 1906 Allotment Act was repealed with the enactment of the 
Alaska Native Claims Settlement Act (ANCSA) in 1971, but with a savings 
provision for individual allotment claims then pending before the 
Department. Certain Alaska Native veterans of the Vietnam War may have 
missed an opportunity to apply for an allotment because they were 
serving in the armed forces immediately prior to the 1971 repeal of the 
Allotment Act and enactment of ANCSA. In 1998, the Alaska Native 
Vietnam Veterans Allotment Act was enacted to redress any unfairness 
that may have resulted.
    The Department supports the principle of equitable treatment of 
Alaska Native Vietnam veterans, and the BLM has made every effort at 
fairness in implementing the 1998 Act. The deadline for Alaska Native 
Vietnam veterans to file an application for an allotment was January 
31, 2002. The BLM received applications from 740 individuals claiming a 
total of 1,010 parcels by that deadline, and has taken action on these 
applications. Of the original 1,010 parcels claimed, 708 (about 70 
percent) have been rejected either because the applicant was not 
eligible for an allotment under the terms of the 1998 Act or the land 
claimed was not available for conveyance under the terms of the Act. 
Nine (9) certificates of allotment have been issued, and 90 parcels 
have been approved for conveyance.
    The processing of the remaining 203 parcels requires more 
information from the applicant before BLM will know whether the 
applicant has met the requirements of the 1998 Act. In many cases, 
despite repeated requests from the BLM, supporting documentation is 
still needed from the applicants. In cases where additional information 
could result in approval of the allotment, BLM makes every effort to 
obtain that information before taking adverse action on the claim.
H.R. 3350
    H.R. 3350 would allow any Alaska Native Vietnam-era (August 5, 
1964, through May 7, 1975) veteran who has not yet received a Native 
allotment to select up to 2 parcels of land totaling no more than 160 
acres. If the veteran is deceased or dies before filing an application, 
an heir may apply for an allotment on the veteran's behalf.
    The legislation would repeal the BLM's regulations that implemented 
the 1998 Act and require the Secretary to publish new regulations 
within one year. Native veterans would have three years after the 
Secretary issues final regulations to file their applications. Native 
veteran applicants could choose any vacant Federal land in the State of 
Alaska located outside of the TransAlaska Pipeline corridor.
    The Department testified in great detail on nearly identical 
legislation (H.R. 3148) in the 107th Congress. As noted above, while 




                     U.S. GOVERNMENT PRINTING OFFICE

38-971 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


H.R. 3350 aims for fairness, it raises a number of serious policy, 
management, and technical concerns, and it would give rise to new 
issues of fairness with respect to other Alaska Natives and other 
Vietnam veterans. H.R. 3350 goes far beyond the original ``missed 
opportunity'' rationale and has the appearance of creating a bonus 
program that awards land for military service only to certain veterans. 
Provisions of the legislation appear to create inequities between 
Alaska Native Vietnam veterans and Natives who did not serve in the 
military by allowing veterans to choose land that was not available to 
other allotment applicants. The deadlines for approval and conveyances 
give applicants under H.R. 3350 preferential treatment not afforded to 
other Alaska Natives. The bill authorizes compensatory acreage for 
Native corporations that voluntarily give up land for Native veteran 
allotments but not for the State of Alaska.
    We oppose H.R. 3350 because it authorizes new allotment claims 36 
years after repeal of the 1906 Native Allotment Act. The legislation 
negates important compromises reached in the passage of the 1998 Act, 
throws out years of adjudication under that Act, and disrupts settled 
land use arrangements under ANCSA and ANILCA. It undermines the goals 
of the Alaska Land Transfer Acceleration Act to finalize land 
entitlements under ANCSA, the Statehood Act, and existing 1906 
allotment applications, and even unconveyed Native veteran claims. 
Finally, it would create additional trust assets and also raises the 
possibility of Constitutional challenge as to whether it may be an 
impermissible preference. Finally, the legislation undermines the 
processing of pending Alaska Native Veteran applications that are 
nearing issuance of certificate of allotments
H.R. 3560, Southeast Alaska Native Land Entitlement Finalization Act
    The Department supports the goal of completing ANCSA entitlements 
as soon as possible so that Alaska Native corporations may have the 
full economic benefit of their intended land base. This includes the 
entitlements due to Sealaska Corporation (Sealaska). However, we do not 
support H.R. 3560 for the reasons detailed below,, including the 
undesirable precedents it may establish as well as its potential impact 
on our ability to complete ANCSA entitlements, not only in Southeast 
Alaska but across the entire state.
Background
    ANCSA established a framework under which Alaska Natives could form 
private corporations to select and receive title to 44 million acres of 
public land in Alaska and receive payment of $962.5 million in 
settlement of their aboriginal claim to land in the State. Sealaska is 
one of twelve regional corporations formed under ANCSA to receive land 
benefits. Sealaska has not received title to all of the acres currently 
allocated to it under Sec. 14(h)(8) of ANCSA and the final allocation 
of acreage to Sealaska under Sec. 14(h)(8) of ANCSA has not yet been 
determined.
H.R. 3560
    As noted above, we support finalizing entitlements under ANCSA, but 
H.R. 3560 does not provide a path to finalization of Sealaska's ANCSA 
entitlement, and it creates new categories of selections not available 
to other regional corporations. Moreover, because the bill would 
authorize the selection of a number of individual small parcels, as 
opposed to larger blocks like the current selections, they will likely 
take longer and be more costly to process than Sealaska's current 
selections.
    We are also concerned about the deadlines for conveyance included 
in H.R. 3560. While BLM-Alaska has worked hard to meet immediate 
specific economic needs of Native corporations when those specific 
needs are identified, we are concerned that the deadlines do not 
provide sufficient time to identify third party interests and easements 
and to complete the other necessary adjudicatory and survey tasks 
needed to assure that the quality of title issued to Sealaska is not 
compromised. We believe that any perceived advantage to Sealaska that 
may come from such deadlines will be outweighed by the hard feelings 
such preferential treatment could provoke in the Native community 
outside of Southeast Alaska.
    More significantly, however, we note that ANCSA did not allow for 
selection and conveyance of cultural sites within National Park System 
(NPS) units in Alaska. This legislation would allow such selections and 
conveyances. Section 3(b)(2)(A)(i) of H.R. 3560, which identifies sites 
for selection and conveyance to Sealaska, includes 12 sites located in 
Glacier Bay National Park and Preserve and one site in Klondike Gold 
Rush National Historical Park. The legislation also provides for later 
identification of additional sites with broad cultural associations 
that could be selected and conveyed from these units, as well as from 
Sitka National Historical Park. Moreover, the bill provides for the 
economic development of the conveyed lands and removes the usual 
protections afforded cultural sites.
    This legislation would significantly impact Glacier Bay National 
Park and Preserve and Klondike Gold Rush National Historical Park by 
removing valuable cultural and natural sites from NPS ownership and 
management, transferring them to private ownership, removing national 
historic protection provisions, and opening them to economic 
development. H.R. 3560 could also result in similar impacts to Sitka 
National Historical Park. For these reasons, we strongly oppose these 
provisions of H.R. 3560.
    As noted above, we support the goal of completing ANCSA 
entitlements as soon as possible and are working hard to ensure that 
process comes to a successful conclusion.
H.R. 3351, The Native American Challenge Demonstration Project Act of 
        2007
    As noted above, H.R. 3351 would establish a new program within the 
Department of Commerce. For this reason, we defer to Commerce as to a 
position on H.R. 3351 and administration of such a program. At your 
request, however, we are including an overview on economic development 
issues in tribal communities. This information updates and supplements 
testimony provided to the Committee by Dr. Robert Middleton, Director 
of the Office of Indian Energy and Economic Development, at a September 
19, 2007, hearing on Diversifying Native Economies.
    The Office of Indian Energy and Economic Development (IEED) works 
to promote economic development, increase business knowledge in tribal 
communities, increase jobs and businesses, broaden access to capital 
investment, and develop Indian energy and mineral resources. To reach 
performance milestones in Fiscal Year 2008, IEED is guided by 
recommendations from tribal leaders, who have asked that we 
concentrate, among other things, on--
    <bullet>  developing a better legal infrastructure in Indian 
Country;
    <bullet>  providing more funding for community and economic 
planning;
    <bullet>  continuing to provide training for business and 
marketplace skills;
    <bullet>  funding financial literacy training at the earliest 
educational stages; and
    <bullet>  offering strategic advice on setting up and operating 
businesses.
    As noted at the September 19th hearing, last May IEED partnered 
with NCAI and other federal agencies and organizations to orchestrate 
the National Native American Economic Policy Summit in Phoenix. Since 
then, IEED has joined with the National Congress of American Indians 
(NCAI) to publish the recommendations offered by the Summit's tribal 
and federal representatives to improve Native American economies. We 
take these recommendations seriously because we believe that no real 
progress can be made in building strong Indian economies until tribes 
themselves identify and undertake to surmount obstacles to economic 
growth in their communities. Actions that we are taking to address 
issues raised in these recommendations are discussed below.
Creating a Strong Legal Infrastructure
    Summit participants made it clear that economic development in 
Indian Country is not possible without the rule of law embodied in 
commercial codes that secure collateral and allow the free flow of 
credit between persons inside and outside the reservation. As a result, 
IEED has funded preparation and adoption of tribal uniform commercial 
code sections dealing with secured transactions and development of a 
curriculum to train tribal uniform commercial code administrators. 
Later this year, we will be co-sponsoring with the Tulalip Tribes of 
Washington a conference on how tribes can adopt codes to protect the 
economic value of their cultural patrimony, including intellectual 
property such as flora, fauna, and oral traditions.
Planning for Progress
    We are also working to advance thinking on comprehensive 
reservation planning, which allows tribes to make a realistic inventory 
of their energy, transportation, water, housing, telecommunications and 
other core infrastructure needs and determine the means for satisfying 
those needs while establishing economic autonomy and creating jobs. On 
October 5-6, 2007 in Tempe, Arizona, we hosted with NCAI, the 
University of New Mexico, and Arizona State University a tribal 
community comprehensive planning conference. A white paper from the 
conference will be available shortly.
    IEED has also funded long-term, strategic economic development 
planning, and has worked to link tribes with advice from some of the 
most distinguished business schools in the United States. Last year, 
the Native American Business Development Institute (NABDI) arranged 
feasibility studies for tribes on potential economic development 
opportunities ranging from a business park, a security business, a 
medical supply enterprise, and an upland bird hunting operation, to new 
uses for a dormant tribal wellness/recreation center, and a greenhouse 
heated by woody biomass. We expect NABDI to undertake similar studies 
this fiscal year.
    We are also now collecting data for the Labor Force Report, which 
was previously compiled by the BIA. The report, with an expected 
release of November 2009, will provide valuable information on 
employment rates, workforce participation, and economic development on 
reservations.
Training for Success
    We have sponsored the Tuck School of Business at Dartmouth 
University to train executives of Indian-owned firms in intensive, one-
day and three-day workshops which teach Native American business men 
and women how to develop and improve business management skills; 
establish and run a business; maintain accounting records; assess 
performance; create a high-performing business enterprise; and expand 
existing operations. Participants learn about implementing company 
strategy, aligning operations to create customer value, operations 
strategy, analyzing and refining key business processes, prioritizing 
process improvements, and effective management techniques.
    To penetrate the ``digital divide'' affecting remote reservations, 
we have been working with the Native American Chamber of Commerce 
(NACC), SeniorNet, and IBM to place IBM-donated computer equipment and 
software and provide high-technology training at various reservation 
locations, called Achievement Centers. The equipment is being used for 
employment training, job searches, internet commerce, home-based 
businesses and many other purposes. The first Achievement Center was 
dedicated at Blackfeet Nation in September 2006, with others 
established for the Leech Lake Band of Ojibwe Indians at Cass Lake, 
Minnesota and the Tigua Tribe at the Ysleta del Sur Pueblo in Socorro, 
Texas. An Achievement Center for the Houlton Band of Maliseet Indians 
in Houlton, Maine, should open this spring.
    IEED also sponsors workshops to train Native Americans how to form 
SBA 8(a) businesses and take advantage of federal procurement 
opportunities, including those made possible by the Buy-Indian Act. 
Within the Department, IEED has encouraged government charge card 
purchasers to ``buy Indian'' and we have set up a data base of 
qualified Native American vendors to facilitate purchases from 
Department procurement officers.
    IEED has also planned and funded a one-year Entrepreneurial 
Education Pilot Project in FY 2008 for students at seven reservation 
high schools. We have partnered with the Bureau of Indian Education and 
the National Foundation for Teaching Entrepreneurship, which last month 
trained teachers at each of the pilot schools.
Providing Strategic Advice
    In 2008, IEED will distribute a Tribal Business Structure Handbook 
to all tribes. Developed in partnership with the Tulalip Tribes, this 
handbook will serve as a primary reference for entrepreneurs 
contemplating creation of a business enterprise. It will provide the 
key factors to be considered when structuring a business or project, 
and is intended to aid tribes in determining whether business formation 
should occur under tribal, state, or federal law and which structure 
will work best to protect tribal assets, preserve tribal sovereignty, 
minimize tax liability, and maximize the use of incentives available 
for tribal economic development.
Conclusion
    For the reasons stated above, the Department opposes H.R. 2445, The 
Alexander Creek Village Recognition Act, and H.R. 3350, the Alaska 
Native Veterans Land Allotment Equity Act, and does not support H.R. 
3560, the Southeast Alaska Native Land Entitlement Finalization Act. We 
defer to the Department of Commerce for its position on H.R. 3351.
    Thank you for the opportunity to present this testimony. I will be 
glad to answer any questions that you or Members of the Committee may 
have.
                                 ______
                                 
    The Chairman. Thank you, Mr. Nedd.
    Ms. Simpson?

 STATEMENT OF MELISSA SIMPSON, DEPUTY UNDER SECRETARY, NATURAL 
   RESOURCES AND ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Simpson. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to talk with you today about a 
bill that addresses land claims in Alaska.
    I am providing testimony on behalf of the Department of 
Agriculture on H.R. 3560, the Southeast Alaska Native Land 
Entitlement Finalization Act. We recognize and support the need 
to finish existing statutory land transfer obligations to 
Native corporations in Alaska, including Sealaska Corporation, 
and are committed to that goal.
    As part of the settlement enacted in the Alaska Native 
Claims Settlement Act in 1971, Native corporations were 
created, and they selected Federal lands for conveyance. 
Sealaska is the regional Native corporation representing 
southeast Alaska and has received some of its entitlements 
under Section 14[h][1] of ANCSA.
    However, there are additional acres that remain to be 
conveyed from the National Forest System lands. We defer to the 
Department of the Interior to determine the final allocation of 
acreage to Sealaska, but for the reasons I will outline today 
we do have some serious concerns with this bill.
    Our testimony will focus on how the proposal relates to the 
management of the public lands of the Tongass National Forest. 
H.R. 3560 would direct the Secretary of the Interior to convey 
over 300 separate acres of land within the Tongass to Sealaska.
    The Forest Service has been in a process to revise the 
original land and resource management plan on the Tongass for 
over 20 years with the goal of establishing economic stability 
to southeast Alaska. Our current forest planning effort is 
drawing to a close in the near future and represents a balanced 
plan that protects fish and wildlife while providing a stable 
supply of economic timber to the local industry.
    Management of some National Forest System lands is 
currently encumbered by the ANCSA withdrawals, and finalizing 
these withdrawals will simplify the future management of these 
lands.
    This information and attached maps provided in the bill are 
not sufficient to accurately assess potential affects at this 
time. We have concerns with some of the selections that are 
proposed by this bill because the selections could remove key 
areas of land from the Tongass that contribute toward the goals 
of the land management plan and the scientific basis on which 
it is premised.
    We would be happy to work with the bill's sponsors to 
address specific tracts of concern. More broadly, it is 
essential that any legislation addressing Tongass land tenure 
issues includes language clearly stating that under no 
requirement of law would enactment precipitate another round of 
land management planning on the Tongass National Forest.
    If H.R. 3560 or similar legislation is to advance through 
the legislative process, we would like to work with the bill's 
sponsors to assure the legislation includes such language.
    Through the court ordered Tongass land management plan 
amendment process in which we are currently engaged, we have 
learned how important the sense of stability and resource 
access is to the 32 small communities embedded within the 17 
million acres of the Tongass.
    Until the planning process is finished, the communities who 
depend on the forest for many aspects of their livelihood, 
recreation and spiritual well being may experience additional 
long-term uncertainty. They have lived through years of timber 
industry's decline, once the backbone of economic stability in 
this region.
    From them we have heard growing concerns over the 
distribution and viability of many wildlife species and 
changing attitudes about how the forest and its abundant 
resources should be managed. The completion of the Tongass land 
management plan and its implementation is important for 
community stability, is important to taxpayers interested in 
assuring its implementation given its costs, and is important 
to the Forest Service's ability to manage the public lands.
    Again, we support the completion of the entitlement due to 
Sealaska as legislated in the Alaska Native Claims Settlement 
Act. We are willing to work with the Committee to resolve the 
issues I have discussed today.
    This concludes my testimony. I will be happy to answer any 
questions you may have.
    [The prepared statement of Ms. Simpson follows:]

         Statement of Melissa Simpson, Deputy Under Secretary, 
   Natural Resources and Environment, U.S. Department of Agriculture

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to talk with you today about a bill that addresses land 
claims in Alaska. I am providing testimony on behalf of the Department 
of Agriculture on H.R. 3560, the Southeast Alaska Native Land 
Entitlement Finalization Act. We recognize and support the need to 
finish existing statutory land transfer obligations to Native 
Corporations in Alaska, including Sealaska Corporation (Sealaska), and 
are committed to that goal. As part of the settlement enacted in the 
Alaska Native Claims Settlement Act (ANCSA) in 1971, Native 
Corporations were created and selected federal lands for conveyance. 
Sealaska is the regional Native Corporation representing Southeast 
Alaska and has received some of its entitlement under Sec. 14(h)(1) of 
ANCSA; however there are additional acres that remain to be conveyed 
from National Forest System lands. We defer to the Department of the 
Interior to determine the final allocation of acreage to Sealaska. For 
the reasons we have outlined below, we have serious concerns with this 
bill.
Background
    Our testimony will focus on how this proposal relates to the 
management of the public lands of the Tongass National Forest 
(Tongass).
H.R. 3560
    H.R. 3560 would direct the Secretary of the Interior to convey over 
300 separate tracts of land within the Tongass to Sealaska.
    The Forest Service has been engaged in a process to revise the 
original Land and Resource Management Plan on the Tongass for over 20 
years with the goal of establishing economic stability to Southeast 
Alaska. Our current forest planning effort is drawing to a close in the 
near future and represents a balanced plan that protects wildlife and 
fish, and will provide a stable supply of economic timber to the local 
industry. Management of some National Forest System lands are currently 
encumbered by the ANCSA withdrawals. Finalizing withdrawals will 
simplify the future management of these lands.
    The information and attached maps provided in the bill are not 
sufficient to accurately assess potential affects at this time. 
However, we have concerns with some of the selections that are proposed 
by this bill because the selections could remove key areas of land from 
the Tongass that contribute toward the goals of the land management 
plan and the scientific basis on which it is premised. We would be 
happy to work with the bill's sponsors to address specific tracts of 
concern. More broadly, it is essential that any legislation addressing 
Tongass land tenure issues includes language clearly stating that under 
no requirement of law would enactment precipitate another round of land 
management planning on the Tongass National Forest. If H.R. 3560 or 
similar legislation is to advance through the legislative process, we 
would like to work with the bill's sponsors to assure the legislation 
includes such language.
    Through the court ordered Tongass Land Management Plan amendment 
process in which we are currently engaged, we have learned how 
important the sense of stability and resource access is to the 32 small 
communities embedded within the 17 million acres of the Tongass. Until 
the planning process is finished, the communities who depend on the 
forest for many aspects of their livelihood, recreation and spiritual 
well-being may experience additional long-term uncertainty. They have 
lived through years of timber industry's decline, once the backbone of 
economic stability in this region. From them we have heard growing 
concerns over the distribution and viability of many wildlife species 
and changing attitudes about how the forest and its abundant resources 
should be managed. The completion of the Tongass Land Management Plan 
and its implementation is important for community stability, is 
important to taxpayers interested in assuring its implementation given 
its costs, and is important to the Forest Service's ability to manage 
the public lands.
    Again, we support completion of the entitlement due to Sealaska as 
legislated in the Alaska Native Claims Settlement Act. We are willing 
to work with the Committee to resolve the issues I have discussed 
today. This concludes my testimony. I would be happy to answer any 
questions you might have.
                                 ______
                                 
    The Chairman. Thank you, Ms. Simpson.

   STATEMENT OF BEN ERULKAR, DEPUTY ASSISTANT SECRETARY FOR 
ECONOMIC DEVELOPMENT, ECONOMIC DEVELOPMENT ADMINISTRATION, U.S. 
                     DEPARTMENT OF COMMERCE

    Mr. Erulkar. Chairman Rahall, Ranking Member Young and 
Members of the Committee, I am honored to be here today 
representing the Department of Commerce.
    I also pleased to be testifying at the same hearing as 
Julie Kitka, President of the Alaska Federation of Natives. The 
Department of Commerce knows Ms. Kitka well, and we have come 
to greatly appreciate her passion, commitment and new ideas 
regarding improving economic opportunity in Native American 
communities.
    I appreciate the opportunity to discuss with the Committee 
the Native American Challenge Demonstration Project Act of 
2007. Although the Administration has not taken a position on 
the bill, in this tight fiscal environment it is clear that 
spending constraint is one of the Administration's top 
priorities.
    However, the Department of Commerce is pleased to offer our 
observations today based on our experience working with Native 
American communities. Overall, the Department appreciates the 
bill's emphasis on planning to promote successful economic 
development and the effort to incorporate performance 
benchmarks in order to better ensure that results are achieved 
for areas where economic opportunity lags.
    These emphases ring familiar with the Economic Development 
Administration. EDA has three policy priorities that guide its 
investment philosophy. We look for projects that promote 
innovation and competitiveness, entrepreneurship and regional 
collaboration. These three cornerstones of EDA's approach have 
successfully created higher skilled, higher wage jobs, 
attracted private investment and prepared America's regions for 
competitive success in the 21st century.
    In selecting projects for investment, both for distressed 
Native American communities, as well as other distressed areas, 
EDA relies on grassroots ideas. When local decision makers 
develop and implement economic development strategies, greater 
numbers of higher skill, higher wage jobs result.
    The Native American Challenge Demonstration Project Act of 
2007 correctly identifies the fundamental need to begin any 
economic development with strategies designed to achieve 
sustainable growth and reduce poverty over a defined period. 
The bill intends to mirror the framework established by the 
Millennium Challenge Act, which improves how the U.S. provides 
foreign aid to underdeveloped countries.
    The Millennium Challenge Act establishes criteria to ensure 
that recipient countries are development ready to successfully 
take advantage of economic development resources. In addition, 
the bill recognizes the critical need to measure actual 
results.
    Equally significant, it recognizes that accountability in 
the implementation of such projects is an important incentive 
for success. Accordingly, it authorizes the Secretary to 
suspend or terminate assistance for poor performance so 
resources can be redirected to more promising initiatives.
    I also appreciate the intent of the bill to simplify the 
complex maze of often confusing regulatory requirements that 
Native American communities face in accessing assistance from a 
myriad of Federal programs.
    In conclusion, this demonstration bill, H.R. 3351, proposes 
to provide Native American communities with a multi-year 
strategic economic development plan developed by the community 
and pushes the major decision making to the local level. This 
is the crucial first step to a successful outcome, as is the 
provision of technical assistance to support capacity building, 
which a number of communities are likely to need.
    We appreciate the intent of this bill to adapt the 
framework of the Millennium Challenge to Native American 
communities. While there are no Department of Commerce funds 
available for this program, we look forward to working with 
Chairman Rahall, Ranking Member Young and the Committee to 
bring our experience in economic development to bear in helping 
Native American communities prosper.
    In addition, I urge the Committee and those interested in 
this bill to reach out to those implementing the Millennium 
Challenge in order to utilize their expertise in crafting 
criteria that address the development ready aspect of the 
proposed legislation.
    Mr. Chairman, Ranking Member Young and Members of the 
Committee, thank you for your time. We look forward to being 
helpful as this bill moves through the Congress.
    [The prepared statement of Mr. Erulkar follows:]

   Statement of Ben Erulkar, Deputy Assistant Secretary for Economic 
 Development, Economic Development Administration, U.S. Department of 
                                Commerce

Introduction
    Chairman Rahall, Ranking Member Young, and Members of the 
Committee, I am honored to be here today representing the Department of 
Commerce. I am also pleased to be at the same hearing as Julie Kitka, 
President of the Alaska Federation of Natives. The Department of 
Commerce knows Ms. Kitka well, and we have come to greatly appreciate 
her passion, commitment, and new ideas regarding improving economic 
opportunity in Native American communities.
    I appreciate the opportunity to discuss with the Committee the 
``Native American Challenge Demonstration Project Act of 2007.'' 
Although the Administration has not taken a position on the bill, in 
this tight fiscal environment, it is clear that spending constraint is 
one of the Administration's top priorities. However, the Department is 
pleased to offer our observations today, based on our experience 
working with Native American communities. Overall, the Department 
appreciates the bill's emphasis on planning to promote successful 
economic development, and the effort to incorporate performance 
benchmarks in order to better ensure results are achieved for areas 
where economic opportunity lags.
Department of Commerce Experience with Native American Communities
    The Department of Commerce has promoted economic growth in Native 
American communities in the following ways:
Minority Business Development Agency Funds Business Centers
        The Minority Business Development Agency (MBDA) funds eight 
        Native American Business Enterprise Centers in Oklahoma, New 
        Mexico, North Dakota, California, Washington, Minnesota, 
        Arizona, and New Mexico, which provide technical assistance and 
        procurement services to Native American businesses. Through 
        this program, the MBDA focuses on helping with contracting and 
        finance opportunities for Native American businesses and Alaska 
        Native corporations.
International Trade Administration Promotes Exports and Tourism
        The International Trade Administration's Commercial Service 
        plays a key role in promoting Native American exports abroad. 
        Since 2004, the Commercial Service has helped its growing base 
        of Native American businesses to achieve approximately $775,000 
        in export sales and international tourism in tribal lands. The 
        Commercial Service has provided research on target markets for 
        Native American artisan work, funded activities at 
        international industry trade shows, and presented training 
        seminars for Native American communities on marketing their 
        native crafts and their lands as travel destinations. Also, the 
        International Trade Administration's Office of Travel and 
        Tourism Industries has tracked tourist visits to Native 
        American communities since 1996. This information is helpful in 
        identifying traveler characteristics and targeting markets for 
        overseas travelers.
The Economic Development Administration Invests in Job Creation
        The Department of Commerce's Economic Development 
        Administration (EDA) makes investments to promote economic 
        development in Native American communities. Native American 
        communities are eligible to compete for EDA investments, and 
        can by statute receive up to one hundred per cent federal 
        funding of their economic development initiatives.

        Since 2001, the Economic Development Administration (EDA) has 
        made 509 strategic investments to Native American communities 
        and organizations for economic development, totaling over $88 
        million; these investments are estimated to have created over 
        9,400 jobs for Native Americans, saved another 6,500 jobs, and 
        leveraged over $395 million in private sector investment.

    Each year, EDA awards approximately 55 planning investments 
totaling $2.6 million to Native American governments to help with the 
creation of comprehensive economic development strategies, and EDA 
expects to maintain this level of investment in 2008. By crafting 
economic development strategies that reflect local priorities, Native 
American governments position themselves to direct their resources to 
optimal use.
EDA has three policy priorities that guide its investment philosophy; 
we look for projects that promote:
    <bullet>  innovation and competitiveness,
    <bullet>  entrepreneurship, and
    <bullet>  regional collaboration.
    These three cornerstones of EDA's approach have been successful in 
creating higher-skilled, higher-wage jobs, attracting private 
investment and preparing America's regions for success in the 21st 
century.
    In selecting projects for investment, both for distressed Native 
American communities as well as other distressed areas, EDA relies on 
grassroots ideas. When economic development strategies are developed by 
local decision makers, the whole process works better.
    As examples of EDA's investments in Native American and Indian 
communities, allow me to review two of EDA's more fruitful 
partnerships.
Native Village of Kwinhagak
        In 2004, EDA made an investment in the Native Village of 
        Kwinhagak near Bethel, Alaska. EDA invested $1.2 million to 
        extend the airport runway 800 feet to accommodate planes 
        handling bigger payloads. This successful investment generated 
        189 jobs. The runway is strategically located to ship cargo to 
        remote wilderness in southwest Alaska and to Anchorage, 
        therefore this runway extension benefits a whole region, not 
        just a locality.
The Umatilla Tribes of Oregon
        Just this year, the Confederated Tribes of the Umatilla Indian 
        Reservation of Oregon prepared a master plan for the 
        development of a business park with other partners in the 
        region. The park is expected to generate $10 million in private 
        investment and its first tenant is a global management and 
        technology services firm. Approximately 200 higher-skill, 
        higher wage jobs will be created in the park, for which the 
        Tribes helped to establish workforce development programs at a 
        nearby university to train their members. This project has 
        proven to be so successful that EDA awarded the Tribes a 
        performance award, providing the Tribes with additional 
        financial resources.
H.R. 3351
    The ``Native American Challenge Demonstration Project Act of 2007'' 
correctly identifies the fundamental need to begin any economic 
development with strategies designed to achieve sustainable growth and 
reduce poverty over a defined period.
    The bill intends to mirror the framework established by the 
Millennium Challenge Act, which improves how the U.S. provides foreign 
aid to under-developed countries. The Millennium Challenge Act 
establishes criteria to ensure that the countries are ``development 
ready'' to successfully take advantage of economic development 
resources.
    If this demonstration project follows the Millennium Challenge Act 
model, it is critically important that Native American communities be 
able to show development readiness by the improvement of schools and 
education levels; elimination of regulatory barriers to business 
creation; and a reduction in violent crime. I also note that it is 
equally critical that these communities take steps to promote 
productivity, innovation and entrepreneurship, which underpin 
successful economic development in the 21st century. One of the most 
significant challenges facing Native American communities is creating 
an environment that is attractive to private sector investment. While 
government resources are important, without private sector investment 
economic growth and job creation will simply not occur.
    In addition, the bill recognizes the critical need to measure 
actual results. Equally significant, it recognizes that accountability 
in the implementation of such projects is an important incentive for 
success; accordingly, it authorizes the Secretary to suspend or 
terminate assistance for poor performance, so resources can be 
redirected to more promising initiatives. I also appreciate the intent 
of the bill to simplify the complex maze of often confusing regulatory 
requirements that Native American areas face in accessing assistance 
from a myriad of federal programs.
    However, while the Native American Challenge Compacts are an 
interesting concept, they also raise some important issues. The Compact 
grants in this bill are based on a process of pre-identifying eligible 
entities, which limits and segments the grantee population. 
Furthermore, the eligibility criteria for these demonstration grants 
are neither based on merit nor need, which hinders the overall 
competitive process. As there may be opposition to these elements, more 
thought should be placed on general eligibility criteria.
    There is also concern over other agencies transferring development 
funds to the Department of Commerce. We would, of course, need to 
discuss such arrangements with our sister agencies.
    We have been informed that the Justice Department has concerns 
about the definition of ``eligible entity'' in section 3 of the bill. 
As I understand the issue, to the extent that the bill could be viewed 
as authorizing the award of government assistance on the basis of 
racial or ethnic criteria, rather than tribal affiliation, grants would 
be subject to strict constitutional scrutiny. Since Congress has not 
recognized any group of Native Hawaiians as an Indian tribe and there 
is a substantial, unresolved question whether Congress may treat the 
native Hawaiians as it does the Indian tribes, I understand that 
Justice recommends that Native Hawaiian community organizations be 
deleted from the list of eligible entities.
Conclusion
    This demonstration bill, H.R. 3351, proposes to provide Native 
American communities with a multi-year strategic economic development 
plan developed by the community, and pushes the major decision-making 
to the local level. This is the crucial first step to a successful 
outcome, as is the provision of technical assistance to support 
capacity building, which a number of communities are likely to need.
    We appreciate the intent of this bill to adapt the framework of the 
Millennium Challenge to Native American communities. While there are no 
Department of Commerce funds available for this program, we look 
forward to working with Chairman Rahall, Ranking Member Young and the 
Committee, to bring our experience in economic development to bear in 
helping Native American communities prosper. In addition, I urge the 
Committee and those interested in this bill to reach out to those 
implementing the Millennium Challenge in order to utilize their 
expertise in crafting criteria that address the development-ready 
aspect of the proposed legislation.
    While the emphasis on performance and planning is impressive, more 
consideration should be given to broadening the eligibility of the 
grant program.
    Mr. Chairman, Ranking Member Young, and Members of the Committee, 
thank you for your time and we look forward to being helpful as this 
bill moves through the Congress.
                                 ______
                                 
    The Chairman. The Chair thanks the panel for their 
testimony.
    To Mr. Nedd, my first question is you state in your 
testimony that the Department of Interior opposes the Alexander 
Creek Recognition Act and the Native Veterans Land Allotment 
Act and does not support the Southeast Alaska Native Land 
Entitlement Finalization Act.
    I just would wonder what the process for selecting you to 
deliver the news to Mr. Young this morning was. Did you draw 
straws downtown?
    [Laughter.]
    The Chairman. Anyway, with regard to Alexander Creek, H.R. 
2445, do you have an estimate of the current fair market value 
of 61,440 acres of land which Alexander Creek would be entitled 
to in the form of a Treasury account under the bill?
    Mr. Nedd. Mr. Chairman, we do not have a current estimate 
right now of the exact cost.
    The Chairman. Could you supply that at a later time for the 
record?
    Mr. Nedd. Mr. Chairman, yes, we will.
    The Chairman. Thank you.
    Concerning the Native veteran allotment bill, H.R. 3350, 
your testimony notes that the bill ``also raises the 
possibility of constitutional challenge as to whether it may be 
an impermissible preference.''
    Could you elaborate on why the Department has 
constitutional concerns about this bill and specifically why is 
this different than other legislation which Congress routinely 
enacts to benefit Native Americans?
    Mr. Nedd. Mr. Chairman, the concern raised there was the 
bill that opens up to Alaska Native veterans versus all 
veterans and then looking at the time period for when the bill 
was originally opened up for.
    The Chairman. Why is this different than other legislation 
that, as I say, Congress routinely enacts to benefit Native 
Americans?
    Mr. Nedd. Mr. Chairman, the way the bill is structured it 
would be to a particular group of veterans, the Alaska Native 
veterans, as compared to other Alaska Natives, and the way the 
ANILCA or ANCSA was constructed, Mr. Chairman, raises some 
concern.
    The Chairman. Mr. Young may want to follow up on that, but 
let me go to my final question.
    Your testimony on the southeast Alaska land conveyance 
bill, H.R. 3560, states that the final allocation of land 
entitlement for the Native corporation has not yet been 
determined.
    Do you have a ballpark estimate of how much land remains to 
be conveyed to the corporation, and what happens if H.R. 3560 
is not enacted? Will the Native corporation still get the land 
to which it is entitled under the Alaska Native Claims 
Settlement Act?
    Mr. Nedd. Right now BLM will not know with certainty how 
much additional land, if any, will be available for the 
allocation on the section, Mr. Chairman, until all work is 
complete. Approximately there is about 16,000 pending 
applications.
    The Chairman. Are you talking about H.R. 3560?
    Mr. Nedd. Yes, Mr. Chairman.
    The Chairman. Let me go to the time of the Ranking Member.
    Mr. Young. Mr. Chairman, we have some votes.
    Mr. Nedd, I can't pick on you particularly. I would love 
to, but I can't. I am unhappy with the Administration. I am 
unhappy with the Secretary.
    I think you guys have really dropped the ball; not only 
this legislation, but all the way through this Administration 
when it comes to the Department of Interior, especially when it 
comes to American Natives and Alaska Natives.
    You say you have to do more work. Thirty-six years, and you 
have been sitting on your thumbs. Thirty-six years. You don't 
know how many acres the State of Alaska has. They will tell me 
how much. I know the number. You should know it. Still, that 
hasn't been transferred.
    If my bill doesn't pass, what they will do is to select old 
growth timber. What they want to do is select new growth with 
roads, not old growth, which solves a lot of our problems. But 
the Interior Department apparently doesn't take that into 
consideration.
    By the way, the Forest Service may have some questions 
about this, but they should be the lead agency and not you.
    Mr. Chairman, like I say, I read this testimony. This is 35 
years old, and you still don't have the answer. That is not 
good. Everything is I oppose, I oppose. They opposed the 
original claims. In fact, President Nixon was going to veto the 
Native Land Claims Act itself because people opposed it. The 
agency opposed it.
    I go through the history of this, and every time I come to 
one of these hearings the agency has opposed anything that is 
beneficial and is helpful to the Native people where you should 
have done the job. Not you personally but the agency. You 
haven't done it.
    Melissa, did I understand you correctly that if there was 
disclaimer language in the bill as far as rewriting the key 
limit that you might have better understanding or better 
sympathy for the bill in the southeast?
    Ms. Simpson. That is correct.
    Mr. Young. OK.
    Ms. Simpson. We need to go back and look at the specific 
tracts though. As you know, there are several issues in the 
legislation that have not been analyzed through the NEPA 
process. That is our biggest concern.
    Mr. Young. I am trying to solve a problem.
    Ms. Simpson. Understood.
    Mr. Young. We will work with you. You said you would work 
with us. I am trying to solve this process. Further witnesses, 
Mr. Chairman, will explain what we are talking about.
    There are some questions about cultural areas. Now the 
cultural areas should be managed by the southeast Alaska 
Natives. It shouldn't be the Park Service. We can arrange that.
    The other areas in question, I am sure that they will tell 
you that they are not going to interfere with the Yukon park or 
whatever you want to call it. They are not going to be involved 
in that. They are trying to select land that will fulfill their 
obligation under the Alaska Native Land Claims Act, lands that 
have already been used. I think that is the best and wisest 
decision.
    Mr. Chairman, I am not going to ask any further questions 
right now. Like I say, I am disgusted with the Department of 
Interior right now. I am not through with it yet. Promise me, I 
am not, but I have no more questions at this time. I might say 
something I regret.
    The Chairman. I just have one quick follow-up question for 
Mr. Simpson, and then I will recognize you, Eni, if I might 
continue on my time.
    Ms. Simpson, this follows from what the Minority Member was 
just stating. Your testimony states that the Department has 
serious concerns about H.R. 3560 and its impact on the Tongass 
National Forest. Among other things, you state that the maps 
referenced by the bill are not sufficient to address potential 
effects.
    Has the Forest Service conducted any public hearings in 
southeast Alaska or analysis regarding the bill's impact on the 
National Forest under NEPA?
    Ms. Simpson. No.
    The Chairman. Since no NEPA work has been done on this 
legislation, could the Alaska Regional Office provide a report 
to the Committee with greater detail and analysis than is 
contained in your short and rather cryptic testimony today?
    Ms. Simpson. Yes.
    The Chairman. It needs a description, with all due respect.
    Ms. Simpson. I believe the Forest Service can provide 
additional information. They will have to speak with Sealaska 
and get further detail, more detailed maps in particular.
    The Chairman. Great. Thank you.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Mr. Chairman, thank you. I certainly want 
to compliment the fantastic work of the gentleman from Alaska 
not only for introducing these pieces of legislation, but some 
30 years that he has been a Member of this committee.
    He has my utmost respect and admiration for his initiatives 
and his sensitivity and the needs of our Native American 
community. I say that quite well not only for the Native 
Alaskans, but for the American Indian community.
    I just wish some of my colleagues here on the other side of 
the aisle would have been here to understand that what we are 
trying to do is to give assistance to the Native Hawaiians 
using the race issue as if the Native Hawaiians are separate 
from Native Americans and Native Alaskans.
    I just wish the Administration would give that same 
consideration. These are the only indigenous groups of people 
that we have under the American flag that should be given 
proper recognition, but somehow we keep coming up with this 
race issue that seems to divide us.
    I sincerely hope, Mr. Chairman, in the coming weeks and 
months that maybe our colleagues on the other side will bear a 
little understanding and appreciation of what we go through 
here.
    The question of the Native Alaskan Veterans Allotment Act. 
I hear the gentleman saying that it precludes other Native 
Alaskans. Am I correct in hearing your testimony just now, sir?
    Mr. Nedd. Congressman, yes. The way we understood the bill, 
it would preclude other Alaska Natives.
    Mr. Faleomavaega. I don't think that was the intent of the 
legislation. I think it is broad enough that any Native Alaskan 
veteran should be a beneficiary to this. Am I correct?
    Mr. Nedd. Yes, Congressman. Any Native Alaskan veteran, 
yes.
    Mr. Faleomavaega. And you are saying that the legislation 
is too narrow; it only specifically addresses certain Native 
Alaskan veterans?
    Mr. Nedd. It separates. We felt that the way the bill is 
written it separates. It would allow allotment to Alaskan 
Native veterans, but not Alaskan Natives as proposed under the 
previous bills.
    Mr. Faleomavaega. Well, this is for veterans. If you have 
served in the military, you are a beneficiary. Only if you are 
a veteran.
    I recall that we have a similar loan program for myself. My 
tribe lives on communal lands. The Native Hawaiians live on 
homestead lands and our Native American Indians live in their 
own reservations or particular lands, so why should they be 
precluded? I don't follow your reasoning saying Native Alaskan 
veterans, not Alaskans per se.
    Mr. Nedd. That is right, Congressman.
    Mr. Faleomavaega. All right. We will proceed and see how 
this might come out in the final Act.
    I want to say for the record, Mr. Chairman, I absolutely 
support all these pieces of legislation as it purports to 
advance and to provide for the better needs of our Native 
Alaskan peoples. I just wish and hope that the Members of this 
committee will accept these proposed bills.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Eni.
    That concludes all the questions we have for this panel`, 
but before dismissing you I would like to extend special 
recognition to Paul Kirton from the Solicitor's Office, who has 
worked on Alaska issues for decades and has served as a 
valuable resource to this committee. He is here with us this 
morning sitting to my far left on the front row.
    We certainly welcome you, Paul, and thank you so much for 
your decades of service to this committee and to Administration 
after Administration and to our country. Thank you.
    The Chair thanks the panel for being with us this morning. 
We will recess for four votes on the Floor of the House before 
calling up Panel II.
    The Committee stands in recess.
    [Recess.]
    The Chairman. The Committee will reconvene.
    Our Panel II is composed of Stephanie Thompson, President, 
Alexander Creek; Julie Kitka, President, Alaska Federation of 
Natives, accompanied by Paul Applegarth, Chief Executive 
Officer of Value Enhancement International, LLC; and Nelson 
Angapak, Vice President, Alaska Federation of Tribes.
    Ladies and gentlemen, we welcome you to the Committee. You 
may proceed in the order I announced you, or if Mr. Young wants 
to introduce you he is certainly welcome to.
    Mr. Young. No. Everyone at this table has been here before 
I believe numerous times. We are looking forward to your 
testimony. Each one of you has a special interest.
    Julie and Nelson especially were recognized before, so I 
would like to proceed with the hearing.

              STATEMENT OF STEPHANIE S. THOMPSON, 
                   PRESIDENT, ALEXANDER CREEK

    Ms. Thompson. Chairman Rahall, Congressman Young and 
Members of the Committee, thank you for the opportunity to 
testify on behalf of Alexander Creek. My name is Stephanie 
Thompson. I am President of Alexander Creek and have been for 
21 years.
    The past two years I have also served on the Alaska 
Federation of Natives Board for the Cook Inlet Region Villages. 
In this capacity I serve on the legislative committee and the 
convention committee.
    Alexander Creek is located 27 miles northwest of Anchorage, 
Alaska, across Cook Inlet right below Mt. Susitna. To this day, 
Alexander Creek is assessable only by airplane, boat and snow 
machine.
    I was 12 years old when ANCSA was enacted. I am now 48 
years old. It has been 36 years, and we are still fighting for 
our village today. My Aunt Flora initially was the one to tell 
our community about ANCSA, telling us that we qualified and 
made sure that we registered for ANCSA. At that time, you 
needed only 25 people to be a village. The BIA determined we 
had 37 Natives properly enrolled to our village.
    Our lands are rich in fish and wildlife and natural 
resources. Because of this and our close proximity to 
Anchorage, Alaska, there was much interest in our lands. Soon 
after ANCAB happened, and a hearing was held to respond to the 
protest of our land.
    At that time, a number of our villagers were not called to 
testify. In fact, my dad, who was vice president at that time, 
who was a captain for WinAir Alaska, had just gotten off a 
flight and returned home when he got the call to come in and 
testify. He ran straight way in in his flight uniform. They put 
him on the stand unprepared, as he testified.
    Shortly thereafter ANCAB came back with its decision after 
a secret proceeding was held and determined that there were 
only 22 Natives enrolled to Alexander Creek. As soon as we 
found this out we protested and put up a petition for them to 
reopen so our people could testify.
    Now, these people, many of them were my aunts, my uncles, 
cousins and friends. They are a part of us, and they still are 
a part of us today. That is why I am here: To make sure you 
hear our story. ANCAB's reason for not allowing these people 
that they took off our roles to be part of Alexander Creek was 
that they did not testify. Well, they were never invited, and 
they did not know about that hearing at that time.
    When ANCAB refused to let our village testify in this way, 
this is the way we lost our village status. Our people--that is 
right; our people--are still with us today. We have received 
support from everybody we have contacted: Congressman Young, 
the Mat-Su Borough, the State of Alaska, Alaska Federation of 
Natives, Cook Inlet Region Villages.
    Cook Inlet Region themselves have given us two letters of 
support, and yesterday we were informed, with some concern to 
us, that they had some concerns on some of the new language we 
had drafted, which is a work in progress and is not yet 
available to this committee. We contacted them immediately and 
were able to resolve these issues, and we look forward to 
working with them and to their continuing support.
    The information that I am leaving with you today, one of it 
is the briefing of Alexander Creek--it has a little more 
details of everything that happened--and a short, seven-minute 
video. This video shows our elders, and they tell their own 
stories of what happened to them. I am going to leave this with 
the Committee so that they will be able to see and be able to 
see our elders and hear their voice.
    They have tasked me with the responsibility of making their 
voices heard. For this purpose, I am here. I would like to 
thank you very much. Quyana.
    At this time I would also like to answer some of the 
Department's questions they had asked earlier. They asked why 
did we accept group status? At that time we were informed that 
we either take group status or we get nothing at all. Our 
villages met, and we were told this. We were given no choice. 
This was all we knew at the time, so we accepted that.
    When I became President, the elders came to me and said 
Stephanie, how can this happen? We received things that said 
that we were a village. Of course we were. I was a part of it. 
How can this happen? I told them I don't know. That is when 21 
years ago I started investigating and finding out.
    I found our information in Paul Kirton's office. I was able 
to get together with Jim Gottstein, who did a wonderful job of 
going through those papers and letting us know what exactly 
happened to us. That is why I am here in front of you today.
    Another concern that they asked about, that you had asked, 
was about the monetary value. At the time when we first did our 
papers there was not much land available. We are hoping in the 
substitute language that we have been working on to be able to 
possibly select lands that are now starting to become available 
because a lot of the villages and the regions are finishing up 
on their selections, and we are hoping to work with the state, 
the Federal government and the Mat-Su Borough on this.
    Thank you very much.
    [The prepared statement of Ms. Thompson follows:]

    Statement of Stephanie S. Thompson, Alexander Creek Incorporated

    Chairman Rahall, Ranking Member Young and distinguished members of 
the committee, Thank you for the opportunity to appear before you today 
on behalf of Alexander Creek. To talk about recognizing Alexander Creek 
as a village, a great injustice that needs to be resolved.
    My name is Stephanie Thompson I am testifying today in my capacity 
as President of Alexander Creek, a position that I have held for 21 
years. For the last two years I have served on the Alaska Federation of 
Natives Board representing the Cook Inlet Region Villages. In this 
capacity I serve on the legislative and convention committees.
LOCATION
    Alexander Creek is located across Cook Inlet 27 miles northwest of 
Anchorage Alaska. Lying right below Mt. Susitna, Alexander Creek 
empties into the Susitna River just a few miles from its mouth in Cook 
Inlet. To this day, Alexander Creek is only accessible by boat, plane, 
snowmobile, or ATV.
HISTORY
    Alexander Creek Village was first reported by George H. Eldridge in 
1898.
    Eldridge was tasked with conducting an extensive exploration of the 
geological, topographical, and other features of Alaska, which was 
authorized by Congress.
    Alexander Creek had a thriving population until the whooping cough, 
measles and the influenza epidemics of the early 1900's decimated the 
Native population. By 1939 Alexander Creek was reoccupied by Native 
families.
ANCSA
    On December 18,1971 Congress enacted ANCSA to settle Alaska Native 
Land Claims. Under ANCSA, Village Corporations were to receive from 
69,120 acres to 161,200 acres depending on how many people lived there. 
As part of it's original selections Alexander Creek was the first in 
the Cook Inlet Region to select lands. These lands were rich in fish, 
wildlife, and natural resources. Because of these things and of its 
easy accessibility from Anchorage there was much interest in the lands 
that were selected.
INITIAL ELIGIBILITY DETERMINATION
    My Aunt, Flora Thiele was actively involved helping with 
registration. Flora is a native from the Village of Seldovia. She 
informed us that we met the qualifications for a village and that we 
needed to register.
    In order to be eligible a village needed to have 25 residents. The 
Bureau of Indian Affairs, which was charged with establishing the 
Village rolls, determined that there were 37 Natives properly enrolled 
to the Alexander Creek Village and that it should be certified as a 
Village for purposes of receiving ANCSA land and monetary benefits. 
Certification as a Village would have entitled Alexander Creek to 
69,120 acres. However, most of the land that would have normally been 
available to Alexander Creek had already been conveyed to the State, 
and much of this already promised to the Matanuska-Susitna Borough. 
This created a conflict over land rights and the State of Alaska and 
the Mat-Su Borough protested Alexander Creek's eligibility.
INTERIOR DEPARTMENT DECISION
    A hearing was held before an Administrative Law Judge to resolve 
the protests starting on July 11, 1974. However, a number of villagers 
were not called in to testify. My father who was Vice President at the 
time had just gotten home from flying when they called him in to 
testify. He went in his flight uniform and they put him on the stand 
unprepared.
    In a ``secret review procedure' The Interior Secretary's designee, 
the Alaska Native Claims Appeals Board (ANCAB) issued its decision on 
November 1, 1974 that there were only 22 natives properly enrolled to 
the village--3 short of the required 25. ANCAB's decision was reversed 
on appeal by the United States District Court on November 14, 1975 and 
Alexander Creek's village eligibility was ordered reinstated. This was 
appealed by the State of Alaska. One year later the Court of Appeals 
affirmed the District Court's ruling on the unconstitutionality of the 
secret proceedings.
    ANCAB's stated reason for the refusal to recognize some of my 
Aunts, Uncles, cousins and friends that had been removed form our 
village rolls, was that they had not testified at the hearing. 
Immediately after learning this Alexander Creek requested ANCAB to let 
these villagers be heard, but ANCAB refused. In this way Alexander 
Creek lost their Village.
    These people didn't go anywhere we include them with us still to 
this day, because of course they are part of Alexander Creek and they 
always will be--they are family.
CONCLUSION
    The Alaska Native Claims Settlement Act of 1971 was the largest 
Native land settlement in the history of the United States. The 
complexity of the Act which ran many, many pages, and consumed the time 
of hundred upon hundreds of dedicated people--from within the federal 
government and state government--not to mention from within the Native 
community--from Barrow to Ketchikan. But passage of this settlement was 
just the start.
    Next came the implementation of a very complex piece of 
legislation.
    This was an unprecedented implementation phase full of complexity 
and difficult work. It would be unreasonable to assume that everything 
went smoothly or was done correctly. There are many errors which 
occurred and the Congress has systematically corrected them with 
amending legislation as the Members became aware of the errors.
    In fact the history of the Alaska Native Claims Settlement Act, is 
that the federal law has been amended in every Congress since 1971. A 
package of technical amendments, and sometimes major policy changes 
have occurred. We in the Alaska Native community consider the Alaska 
Native Claims Settlement Act to be living legislation--that is intended 
to remain responsive to the real needs of Alaska Native people over 
time. The error that occurred to the people of Alexander Creek must be 
corrected and we have remedial legislation which can do this.
    Mr. Chairman for the reasons that I have stated, our village 
corporation strongly supports H.R. 2445. Congressman Young has listened 
to our concerns and is seeking to correct a wrong, a wrong which 
Congress can correct. The federal courts have heard our concern, and 
have stated that this wrong should be corrected. The most significant 
aspect of the legislation is that it correctly recognizes Alexander 
Creek as what it has been for hundreds of years: an Alaska Native 
Village. The bill would recognize Alexander Creek as a village, not a 
group corporation, and provide a means for the village to receive the 
value it is due under ANCSA as a recognized village. These are our most 
important goals. We have worked with Congressman Young and staff on a 
potential substitute that would meet these two goals and provide more 
for land conveyances than for just compensation. We would be happy to 
work with the committee and the State of Alaska on either approach, 
both of which would exclude any land conveyance in conservation units.
    We have been recognized as a group corporation, but we are not we 
are a Village.
    We've received support from everyone we contacted, the Villages, 
Cook Inlet Region, Alaska Federation of Natives, the Matanuska Susitna 
Borough, and the State of Alaska.
    The time to act is now.
    I will be leaving a briefing document and a DVD entitled ``These 
Voices Must Be Heard'', which tells the story of Alexander Creek in the 
words of our elders.
    I'd like to thank you in the language of our people--Quyana.
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    The Chairman. Thank you.

 STATEMENT OF JULIE E. KITKA, PRESIDENT, ALASKA FEDERATION OF 
   NATIVES, ACCOMPANIED BY PAUL APPLEGARTH, CHIEF EXECUTIVE 
         OFFICER, VALUE ENHANCEMENT INTERNATIONAL, LLC

    Ms. Kitka. Good morning. Thank you, Mr. Chairman. My name 
is Julie Kitka, and I am testifying today in my position as 
President of the Alaska Federation of Natives. I have a cold 
today, so I apologize if my voice kind of sounds a little 
rough.
    Thank you for allowing me to testify on H.R. 3351, which 
our congressman has introduced. We very much appreciate this 
hearing, and we are supportive of this bill and urge its swift 
passage and implementation. At our recent AFN annual convention 
held in Fairbanks less than a couple weeks ago, our delegates 
voted unanimously, and I ask that the resolution of support be 
included in the record.
    A little bit of background. In March of 2002, President 
Bush proposed establishing the Millennium Challenge Account, a 
foreign aid program designed to provide substantial new foreign 
assistance to low income countries that are ruling justly, 
investing in their people and encouraging economic freedom.
    The MCA was envisioned as the most fundamental change to 
U.S. foreign policy assistance since President John F. Kennedy 
introduced the Peace Corps, the U.S. Agency for International 
Development and the Alliance for Progress in the early 1960s.
    The significance of the initiative lies partly in its 
scale, with a greater focus on recipient country ownership of 
programs, greater budget support in certain circumstances and a 
great emphasis on results-based management and on providing a 
larger share of aid to countries with a demonstrated commitment 
to policy reform.
    H.R. 3351 proposes essentially a demonstration project of a 
domestic version of the Millennium Challenge Account targeted 
to Native American populations with the highest levels of 
poverty. AFN is supportive of this demonstration project and 
has been working with our partners, Bristol Bay Native 
Association and the Association of Village Council Presidents 
and their 87 Native villages, for a number of years on elements 
of this.
    The relevance of this demonstration project recently was 
brought home by a visit from the President of Mongolia to the 
AFN annual convention in Fairbanks. President Nambaryn Enkbayar 
was in the United States to sign a five year, $285 million 
compact with President Bush and the United States to reduce 
poverty and increase economic growth.
    The five main areas of the agreement that he signed with 
the United States dealt with a rail project, property rights 
project, vocational education, health project and 
administration. This was the fifteenth MCC compact signed by 
the United States, totaling nearly $4.9 billion covering areas 
in Africa, Central America, Eurasia and the Pacific.
    When AFN talked with President Enkbayar about the recent 
Millennium Challenge compact, we mentioned H.R. 3351, which was 
pending to create a domestic version. We asked President 
Enkbayar if he would share lessons his country learned from 
their implementation and that we would share what lessons that 
we learned, and he agreed.
    The reason for globalization continues where in a remote, 
isolated place like Alaska we could have exchanges with remote, 
isolated places like Mongolia for the sole purpose of reducing 
poverty with economic growth and fostering positive relations. 
It is an amazing time that we live in.
    This model deserves to be tested among our Native American 
populations with high poverty rates. We don't need to invent or 
reinvent the wheel. We need the Congress to pass H.R. 3351 and 
provide the resources for our people to bring about the 
benefits of this program to more people. It can be replicated 
within the United States with predictable positive results, and 
we will discover how to do it with your help. We can add to the 
collective knowledge about strengthening Native communities 
within the United States during periods of rapid change and 
uncertainty.
    We ask you to think of the following questions as you 
deliberate on this important piece of legislation: Is this a 
good idea? Is it a powerfully good idea for systemic change in 
Native communities? Can you take a chance on us that we are 
capable of implementing this? Is there a national impact here?
    AFN believes there is. We are committed to staying the 
course and willing to keep at it for as long as it takes to 
succeed. That is an expression on how we believe this 
demonstration project can make a difference in our people's 
lives.
    I know I am running close on the time. I wanted to ask for 
a couple resource materials to be added to the record. One is 
AFN commissioned the University of Alaska Institute of Social 
and Economic Research and First Alaskans Institute to do a 30-
year trend analysis on key indicators with the Native 
population, and we ask that this trend analysis, the executive 
summary, be included in the record.
    What we will see in the trend analysis, just very briefly, 
is there has been tremendous progress made in the last 30 
years. Many indicators--everything from health, housing and 
well being--have improved for Alaska Natives, so the work that 
this Congress and our leadership have done has made a 
difference. You can just see it in the black and white 
statistics in the trend analysis.
    What we see is a continuing threat of disparity on all the 
major indicators. The disparity is getting closer to closing, 
but it is still there. It is this targeted area that we are 
hoping to use, the demonstration project, to close the 
disparity gap that continues and bring greater equity.
    We use the example of the poverty rate because this is 
primarily focused on reducing poverty in Alaska, Hawaii and in 
some targeted reservations. While Alaska Native per capita 
income in the year 2000 was four times higher than it was in 
the 1960s, that income was still less than one-half of the 
income earned by non Natives during the same period of time.
    In remote Alaska, where the cost of living is the highest, 
60 percent of the population is Alaska Native. In fact, one-
quarter of all Native families in remote Alaska live below the 
poverty level, and one-fifth of the Native population lives 
below the poverty level.
    Overall, the poverty rate for Alaska Natives is still three 
times that of non Natives, so I think that we have more than 
adequate documentation of the critical need that we need this 
program for. We have the statistical trend analysis that will 
show you what is the disparity gap that we are hoping to close, 
and so that is the target of what we are trying to do.
    In addition to that, we have worked with you. In fact, the 
Congress a couple years ago amended and put in a provision in 
the Denali Commission to direct them to do an assessment of 
these indicators on reducing poverty.
    The contractor for the Denali Commission, the First 
Alaskans Institute, just completed in September of 2007 a 
lengthy report called Engaging Community Knowledge to Measure 
Progress: World Development Performance Measures. We ask that 
that be put into the record. I have given the clerk the volume 
of the report, as well as the CD.
    We have been working on this for a number of years, and we 
have been doing all the groundwork on the reports and the 
statistics so that when we come to you and ask you for 
authorization of this bill and give us the resources to 
implement it we will have all the statistical measurements that 
you can and the targeted focus, so I think that we are doing a 
lot of preparation right now.
    The third thing I would like to add included in the record 
is we have really been focused on this results-based 
management. We are a great believer that the more that you 
focus in on what you are trying to accomplish the greater 
success that you have.
    We are very aware of the limited and tight environment you 
deal with as far as Federal resources, so we want to make sure 
that whatever resources that we ask for are used as well and as 
smart and as leveraged as much as possible.
    And so we commissioned another analysis of results-based 
management processes used by the OMB, used by the Asian 
Development Bank, to see another perspective on this results-
based management and then another model which RuralCAP uses 
called the ROMA model, and we ask that that analysis be put 
into the record because I think it has some very relevant 
findings on this results-based management and how, properly put 
together with our bill on that, we could have great results.
    The last thing I wanted to just mention that has been 
raised with us is how do we get some kind of independent 
verification of this demonstration project and make sure that 
what we are trying to accomplish actually is accomplished. How 
do we have somebody that is disinterested that can take a look 
at that and the results to make sure again that the resources 
are used in as most effective way as possible.
    In this light, AFN has contacted the Center for Global 
Development and the Brookings Institute, which are both leading 
entities who have been following the MCC project since its 
inception. AFN has asked them to convene a workshop of leading 
experts on the Millennium Challenge and also on reducing 
poverty through economic growth.
    We anticipate when this bill is passed and it is in its 
implementation stage we would work with the Commerce 
Department, the Center for Global Development, the Brookings 
Institute and a number of other universities in helping us map 
out a process for sharing information and best practices and 
also this implementation of a third party evaluation process.
    With that, Mr. Chairman, I just wanted to introduce real 
quickly who is accompanying me is Mr. Paul Applegarth, who is 
available to answer questions should there be questions.
    Mr. Applegarth was the first president of the Millennium 
Challenge Corporation when it was set up as an independent, 
Federally chartered appropriation to handle the big, 
international program for the United States, and he has been 
assisting us. We have really appreciated his help in doing our 
advance work on this legislation.
    Thank you.
    The Chairman. Thank you, Julie. Without objection, all of 
the requested materials will be made part of the record.
    [The prepared statement of Ms. Kitka follows:]

                Statement of Julie E. Kitka, President, 
               Alaska Federation of Natives, on H.R. 3351

    Good morning. My name is Julie E. Kitka, and I am testifying today 
in my position as President of the Alaska Federation of Natives. Thank 
you for holding this hearing and allowing us to testify on H.R. 3351. 
The Alaska Federation of Natives (AFN) is fully supportive of H.R. 3351 
and urges its swift passage and implementation. The delegates to the 
2007 AFN Annual Convention held recently in Fairbanks, Alaska 
considered H.R. 3351 and unanimously voted in support of the 
legislation. We asked that the 2007 AFN Annual Convention resolution of 
support be included in the hearing record.
Background:
    In March 2002, President Bush proposed establishing the Millennium 
Challenge Account (MCA), a foreign aid program designed to provide 
substantial new foreign assistance to low-income countries that are 
``ruling justly, investing in their people, and encouraging economic 
freedom.'' The MCA was envisioned as the most fundamental change to 
U.S. foreign assistance policy since President John D. Kennedy 
introduced the Peace Corps, the U.S. Agency for International 
Development (USAID), and the Alliance for Progress in the early 1960s. 
The significance of the initiative lies partly in its scale, with a 
greater focus on recipient country ownership of programs, greater 
budget support in certain circumstances, and a greater emphasis on 
``results-based management'' and on providing a larger share of aid to 
countries with a demonstrated commitment to policy reform.
    H.R. 3351 proposes essentially a demonstration project of a 
domestic version of the Millennium Challenge Account (MCC) targeted to 
Native American populations with the highest levels of poverty. AFN is 
fully supportive of this demonstration project and has been working 
with our partners, Bristol Bay Native Association and the Association 
of Village Council Presidents, and their 87 Native villages, for a 
number of years on elements of it. The relevance of this demonstration 
project recently was brought home by a visit from the President of 
Mongolia to the AFN Annual Convention in Fairbanks a couple of weeks 
ago. President Nambaryn Enkbayar was in the United States to sign a MCC 
agreement with the United States. The October 22, 2007 signed agreement 
was a five year, $285m compact to reduce poverty and increase economic 
growth. The five main areas of the agreement deal with a rail project, 
property rights project, vocation education project, health project and 
administration. This was the 15th MCC compact signed by the United 
States totally nearly $4.9B covering areas in Africa, Central America, 
Eurasia and the Pacific.
    When AFN talked with President Enkbayar about the recent MCC 
compact--we mentioned H.R. 3351 which was pending to create a domestic 
version. We asked President Enkbayar if he would share lessons his 
country learns from their implementation, and that we would share what 
lessons we learned. He agreed. The reach of globalization continues--
where in a remote isolated place like Alaska, we could have exchanges 
with a remote isolated place like Mongolia--for the sole purpose of 
reducing poverty with economic growth and fostering positive relations. 
It is amazing times we live in.
    This model deserves to be tested among our Native American 
populations with high poverty rates. We don't need to invent or 
reinvent the wheel. We need the Congress to pass H.R. 3351 and provide 
the resources for our people to bring about the benefits of this 
program to more people. It can be replicated within the United States 
with predictable positive results and we will discover how to do it 
with your help. We can also add to the collective knowledge about 
strengthening Native communities within the U.S. during periods of 
rapid change and uncertainty.
    We ask you to think of the following questions as you deliberate on 
this important piece of legislation: Is this a good idea? Is it a 
powerfully good idea for systemic change in Native communities? Can you 
take a chance on us that we are capable of implementing this? Is there 
a national impact here? AFN believes there is. We are committed to 
staying the course and are willing to keep at it as long as it takes to 
succeed. That is an expression on how much we believe this 
demonstration project can make a difference in our peoples lives.
    As a result of this program getting authorized and implemented we 
will continue to build the capacity of Native Americans to engage in 
economic activities and pull ourselves out of the poverty trap. We all 
know that the U.S. economy has continued to grow and that there are 
pockets within the U.S. where the increased prosperity has not reached. 
This demonstration project, in many ways is intended to ensure that no 
one gets left behind. AFN anticipates that the renewed focus and 
attention on poverty within Native communities will allow the 
development of new partnerships working together to expand life 
opportunities for Native Americans.
    Recently, AFN commissioned the University of Alaska, Institute of 
Social and Economic Research, and First Alaskans Institute to do a 
thirty-year trend analysis of key indicators within the Alaska Native 
population. Although tremendous improvements in health, education, 
housing and well-being has occurred over the last 30 years--poverty 
among Alaska Natives remains twice that of Non-Alaska Natives--over 
20%. We see a continuing thread of disparity on every major indicator 
of well-being. It is this disparity we hope to attack with 
implementation of H.R. 3351. That is our focus. That is what we ask you 
to hold us accountable to accomplish. We need your help to do this. We 
need H.R. 3351 passed and implemented quickly. AFN asks that the 
Executive Summary of the 30 Year Trend Analysis be included in the 
hearing record.
    Another example of our advance preparations included a request we 
made to the Congress several years ago to include a new provision 
within the Denali Commission to do an assessment of indicators, 
performance measures on reducing poverty in Alaska. The First Alaskans 
Institute just completed the project on behalf of the Denali Commission 
and has released a lengthy report entitled ``Engaging Community 
Knowledge to Measure Progress: Rural Development Performance Measures 
Project Report''--September, 2007. We ask this report be made a part of 
the hearing record. We have a hard copy, and a CD of the report and 10 
appendices. AFN anticipates that this report will become a part of the 
demonstration project and used extensively in the development of work 
plans and proposals to the Secretary of Commerce under this 
legislation.
    AFN has been very interested in how the results-based management 
process works in different sectors and with what success. AFN 
commissioned an analysis of the results-based management process of the 
Office of Management and Budget (OMB), the Asian Development Bank's 
process and RuralCAP's ROMA model. AFN asks that this analysis be 
included in the hearing record.
    AFN has also anticipated that the Congress will want to see 
independent verification of activities and results of the demonstration 
project. In this light, AFN has contacted the Center for Global 
Development and the Brookings Institute, both leading entities who have 
been following the MCA project since its inception. AFN has asked them 
to convene a workshop of leading experts to share best practices 
learned from the MCA and other global initiatives to reduce poverty 
through economic growth. AFN anticipates, when H.R. 3351 is passed and 
is in its implementation stage, the U.S. Commerce Department and the 
Center for Global Development, and Brookings Institute will sit down 
with us and map out 1) a process for exchange of information on best 
practices and 2) an independent third party evaluation process. This 
should ensure that the funds the Congress appropriates and the purposes 
set out in H.R. 3351 are used well and leveraged with the best 
information available from throughout the world.
    Thank you for allowing AFN to testify today. We stand ready to work 
with you to better life opportunities for Native Americans. Thank you 
for your dedication and hard work on behalf of our people.
Attachments:
    (1)  2007 AFN Convention resolution of support of the Native 
American Challenge Demonstration Project of 2007
    (2)  AFN commissioned report on results-based management (OMB, ADB, 
ROMA process)
    (3)  AFN commissioned report: Executive Summary of the 30-Yr Trend 
Analysis
    (4)  Engaging Community Knowledge to Measure Progress: Rural 
Development Performance Measures Project Report, September 2007 First 
Alaskans Institute report to the Denali Commission
    [NOTE: The attachments submitted for the record have been retained 
in the Committee's official files.]
                                 ______
                                 
    The Chairman. Nelson?

             STATEMENT OF NELSON N. ANGAPAK, SR., 
          VICE PRESIDENT, ALASKA FEDERATION OF NATIVES

    Mr. Angapak. Good afternoon, Mr. Chairman, Congressman 
Young. My name is Nelson Angapak, Vice President, Alaska 
Federation of Natives.
    I am a veteran. I served in the U.S. Army from 1969 to 
1971, and I was honorably discharged. Mr. Chairman, I think it 
is very appropriate that this hearing is taking place the 
Wednesday after the Sunday in which this nation recognized and 
honored its veterans.
    Mr. Chairman, let me quote the President when he was 
honoring fallen members of our troops. He said: In their sorrow 
these families need to know and families all across our nation 
of the fallen need to know that your loved ones served a cause 
that is good and just and noble. As their Commander in Chief, I 
make you this promise. Their sacrifice will not be in vain.
    Mr. Chairman, I was very disappointed to hear an agent of 
this nation seemingly speak out against what the President was 
saying. Tributes to veterans, Mr Chairman, are timeless. They 
transcend time.
    At the outset, Mr. Chairman, let me say that historically 
it has been recorded that the American Indians and Alaska 
Natives on a per capita basis have the greatest number of their 
membership serving in U.S. armed forces. During the Vietnam 
War, we had 42,000 American Indians and Alaska Natives serving 
in the battlefields of southeast Asia. Ninety percent--90 
percent--of the 42,000 were volunteers.
    Mr. Chairman, pursuant to the existing statute, 
approximately 1,110 Alaska Natives became eligible to apply for 
allotments, of which 741 applied for allotments. Of that, 10 
allotments have been certified. Since the passage of the 
statute that authorized our veterans to apply for allotments in 
1998, 10 allotments certified.
    You know, Mr. Chairman, when you passed that statute I 
believe Congress had good intentions in its passage, and in my 
heart I still believe that Congress had good intentions in its 
passage. That is why there is a need to amend our existing 
statute. We need to expand the land base for veterans' 
allotments under the existing law to include all vacant public 
lands in Alaska.
    Two, please consider amending the statute in such a manner 
that the veterans living in southeast Alaska, south central 
Alaska and north slope rural need an opportunity to apply for 
allotments. We have the largest concentration of Alaska Native 
veterans in southeast, in south central Alaska, and all of 
their allotment applications were turned down because of the 
existence of the national forest.
    All we are seeking, Mr. Chairman, is an equitable treatment 
of our veterans with an opportunity to apply for allotments. We 
are also asking that because of so few allotments being 
certified that Congress consider a legislative approval process 
to Alaska Native veteran allotments. We also propose, Mr. 
Chairman, that the heirs of a deceased veteran be able to apply 
for allotments on behalf of the fallen.
    Mr. Chairman, we are hopeful that your committee will be 
passing this bill. The state Native Committee supports it. The 
Alaska state legislature passed a joint resolution urging 
Congress to pass this legislation.
    Mr. Chairman, I thank you for giving me an opportunity to 
submit this statement, and I request that my oral and my 
written statement be incorporated into the record.
    Thank you.
    [The prepared statement of Mr. Angapak follows:]

         Statement of Nelson N. Angapak, Sr., Vice President, 
               Alaska Federation of Natives, on H.R. 3350

Introduction
    Good morning Mr. Chairman Rahall, Honorable Don Young of Alaska, 
Honorable members of the U.S. House Natural Resources Committee, ladies 
and gentlemen:
    For the record, my name is Nelson N. Angapak, Sr., Vice President, 
Alaska Federation of Natives (AFN). For your information, AFN is a 
statewide Native organization formed in 1966 to represent Alaska's 
100,000+ Eskimos, Indians and Aleuts on concerns and issues affecting 
their rights and property interests. I am a veteran and I served in 
active duty in the U.S. Army from 1969 to 1971; I was honorably 
discharged.
    On behalf of AFN, its Board of Directors and membership, thank you 
very much for inviting AFN to submit its statement to the Committee on 
H.R. 3350, ``Alaska Native Veterans Land Allotment Equity Act;'' a bill 
that would authorize the honorably discharged Alaska Native veterans of 
the ``Nam Conflict.'' It is a privilege and honor to testify before 
your Committee. I ask that this written statement and my oral comments 
be incorporated into the record of this public hearing. I also ask that 
the record of this public hearing on H.R. 3350 be kept open for two 
weeks following the hearing to give the Alaska Native veterans of the 
``Nam Conflict'' and other interested parties an opportunity to submit 
written statements.
    I want to take this opportunity to thank you and the U.S. House 
Natural Resources Committee for having worked with AFN and the Alaska 
Native Community during the past millennium on issues of concern to AFN 
and the Alaska Native Community. During the last millennium, U.S. 
Congress passed a series of historic legislation that benefited the 
Alaska Native Community. Some examples of such legislation include, but 
are not limited to: P.L. 92-203, the Alaska Native Claims Settlement 
Act; Indian Child Welfare Act, the Indian Self-Determination Act, Title 
VIII of the Alaska National Interest Lands Conservation Act; just to 
name a few.
    I would like to bring the following points to your attention up 
front:
    1.  As the 20th century closes, there are nearly 190,000 Native 
American military veterans. It is well recognized that, historically, 
Native Americans including Alaska Natives, have the highest record of 
service per capita when compared to other ethnic groups. The reasons 
behind this disproportionate contribution are complex and deeply rooted 
in traditional American Indian culture. In many respects, Native 
Americans are no different from others who volunteer for military 
service. They do, however, have distinctive cultural values which drive 
them to serve their country. One such value is their proud warrior 
tradition. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ http://www.history.navy.mil/faqs/faq61-1.htm
---------------------------------------------------------------------------
    2.  The outbreak of World War II brought Native American warriors 
back to the battlefield in defense of their homeland. Although now 
eligible for the draft by virtue of the Snyder Act, which gave 
citizenship to American Indians in 1924, conscription alone does not 
account for the disproportionate number of Native Americans who joined 
the armed services. More than 44,000 Native Americans, out of a total 
Native American population of less than 350,000, served with 
distinction between 1941 and 1945 in both the European and Pacific 
theaters of war. Native American men and women on the home front also 
showed an intense desire to serve their country, and were an integral 
part of the war effort. More than 40,000 Indian people left their 
reservations to work in ordnance depots, factories, and other war 
industries. Native Americans also invested more than $50 million in war 
bonds, and contributed generously to the Red Cross and the Army and 
Navy Relief societies. <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ Ibid
---------------------------------------------------------------------------
    3.  The Native American's strong sense of patriotism and courage 
emerged once again during the Vietnam era. More than 42,000 Native 
Americans, more than 90 percent of them volunteers, fought in Vietnam. 
Native American contributions in United States military combat 
continued in the 1980s and 1990s as they served in Grenada, Panama, 
Somalia, and the Persian Gulf. <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ Ibid
---------------------------------------------------------------------------
    Please note that these three points were excerpted from a website 
of the DEPARTMENT OF THE NAVY--NAVAL HISTORICAL CENTER; 805 KIDDER 
BREESE SE--WASHINGTON NAVY YARD; WASHINGTON DC 20374-5060. This is 
public information that is readily available for the people of the 
United Stated of America.
    I believe in my heart that the intentions of Congress were 
honorable when it passed Section 41 of P. L. 105-276 in 1998, the 
Alaska Native Vietnam Veterans Allotment Act. I believed it then, and I 
still believe it now; Congress intended that Alaska Native veterans of 
the ``Nam Conflict would have the opportunity to obtain allotments of 
land under the 1906 Alaska Native Allotment Act. Please note the 
following:
    1.  Under the 1998 law, approximately, 1,110 Alaska Natives who 
served in active duty in the U.S. Armed Forces and were honorably 
discharged would have become eligible to apply for Native allotments.
    2.  Of this number, according to Bureau of Land Management in 
Alaska, 741 Alaska Native veterans who met the terms and conditions of 
this statute applied for Native Allotments in good faith.
    3.  To date, only ten veteran allotments have been certified. I 
applied for a Native allotment under the Act as I was one of the 1,110 
veterans who met the terms and conditions of this statute; to date, I 
do not have a certified allotment. During the public hearing process 
for the existing statute, I disclosed to this committee that I could be 
a beneficiary of this law if it became a statute.
    Many disillusioned Alaska Native veterans who served in active duty 
in the U.S. Armed Forces from January 1, 1969 to December 18, 1971, who 
applied for allotments were rejected because they did not meet the 
strict criteria of existing law. I think they must still have faith in 
Congress because they eagerly await the passage of H.R. 3350. However, 
they do ask me ``what were the intentions of Congress when they passed 
this law that gives us nothing but empty promises. I've told them that 
I feel the intentions of Congress were honorable in 1998 and I still 
feel that way; but how do I answer all those Alaska Native veterans of 
the ``Nam Conflict who wonder why they were left out?
AFN Supports the Passage of H.R. 3350
    AFN lobbied for the reopening of the Native Allotment Act of May 
17, 1906 for the Alaska Native veterans who were unable to apply for 
Native Allotments because they were serving in active duty in the U.S. 
Armed Forces of this nation over seas. Congress corrected this 
oversight by the inclusion of Section 41 of P.L. 105-276 and AFN thanks 
you for having the courage to act affirmatively on this by authorizing 
those of us who served in active duty in the U.S. Armed Forces to apply 
for Native Allotments if we served for at least six months of active 
duty during the period January 1, 1969 to December 31, 1971.
    Historically, Alaska Natives and American Indians have, on a per 
capita basis, served in greater numbers than any other group in active 
duty in the U.S. Armed Forces; and in particular, during the major 
military conflicts of this nation. The Honorable George W. Bush, 
President of the United States of America referenced this fact during 
one of his stop overs in Anchorage, Alaska, on his way overseas; AFN 
thanks President Bush for the public recognition of this fact.
Alaska Natives Support the Passage of H.R. 3350
    Attached to my statement, please find a copy of a resolution that 
was considered and passed unanimously by the 2,500 delegates to the 
2007 Annual Convention of the Alaska Federation of Natives. The 
unanimous passage of AFN Convention Resolution 07-06 ``A RESOLUTION OF 
CONTINUED SUPPORT OF AMENDING THE ALASKA NATIVE ALLOTMENT ACT AND THE 
ALASKA NATIVE VIETNAM VETERANS ALLOTMENT ACT'' demonstrates that there 
is a very strong statewide support for the passage of this legislation.
    Please note the following resolves of this resolution:
NOW THEREFORE BE IT RESOLVED by the Delegates to the 2007 Annual 
        Convention of the Alaska Federation of Natives, Inc., that AFN 
        requests the Alaska Congressional Delegation to introduce 
        legislation to amend the Alaska Native Allotment Act of 1998, 
        and the Alaska Native Vietnam Veterans Allotment Act in order 
        to allow more Native allotments for Native Vietnam veterans and 
        to take actions that would move such legislation forward to a 
        vote in 2008.
BE IT FURTHER RESOLVED that AFN 2007 Delegates unanimously support the 
        passage of all Alaska Native Vietnam Veteran Allotment for 
        adjudication on Tongass/NPRA lands under the applicants of the 
        Alaska Native Vietnam who has applied under the provisional 
        Allotment Act of 1906. <SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ AFN Convention Resolution 07-06, copy attached to this 
statement
---------------------------------------------------------------------------
 The Alaska State Legislature Supports the Passage of Legislation 
        Leading to Native Allotments for the Alaska Native Veterans of 
        the ``Nam Era''
    In support of more Native allotments in Alaska, the Alaska State 
Legislature, in 2006, unanimously passed House Joint Resolution 27 HJR 
27 which urges the United States Congress to pass legislation amending 
the Alaska Native Vietnam Veterans Allotment Act to allow deserving 
veterans to obtain allotments of vacant federal land within the State 
of Alaska; and to reopen and legislatively approve allotments in the 
Tongass National Forest that were previously rejected. A copy of HJR 27 
is attached to my statement. Also attached is the statement of John 
Coghill, Jr, sponsor of HJR 27, which demonstrates the strong support 
of all Alaskans for providing more allotments for Alaska Natives.
The Need for the Enactment of H.R. 3350
    AFN, working in conjunction with the Alaska Legal Services, 
identified the major obstacles which made it difficult for the Alaska 
Native Veterans of the ``Nam Era'' to apply for and receive their 
Native Allotments. These are identified as follows in summary:
    1.  Alaska Native veterans can only apply for land that was vacant, 
unappropriated, and unreserved when their use commenced.
    2.  Lands within national forests are not available for veteran 
allotments nor are federal lands designated as Conservation System 
Units (CSUs) available for veteran allotments unless the CSU managers 
approve.
    3.  Alaska Native veterans can only apply if they served in active 
military duty from January 1, 1969 to December 31, 1971 (even though 
the Vietnam conflict began August 5, 1964 and ended May 7, 1975).
    4.  Alaska Native veterans must prove they used the land (applied 
for in their native allotment application) in a substantially 
continuous and independent manner, at least potentially exclusive of 
others, for five or more years.
    5.  The heirs of deceased veterans are not eligible for veteran 
allotments except in the limited situations where the veteran was 
killed in action, died from a war related injury, or died while a 
prisoner of war.
    As a result of these obstacles, as I stated in my opening remarks, 
of the approximately 741 veteran applications filed, only 10 veteran 
allotments have been certified. AFN believes that Congress did not 
intend such an outcome. AFN supports amending Section 41 of P.L. 105-
276 so that the original intent of this statute can be fulfilled.
    AFN proposes the following:
    1.  Expand the land available for veteran allotments under existing 
law (P.L. 105-276): P.L. 105-276 mandates that the Alaska Native 
Veterans of the ``Nam Era'' can only apply for lands that are vacant, 
unappropriated, and unreserved lands. As you know, almost all the lands 
in Alaska are appropriated and reserved; and in particular, after the 
enactment of the Alaska National Interest Lands Conservation Act. AFN 
proposes that the Alaska Native veterans be allowed to apply for Native 
Allotments on unoccupied public lands in Alaska. Expanding the land 
base in this manner will increase the land base from which veterans can 
apply for as Native Allotments.
    2.  Allow veteran allotments in the national forests: All veterans 
in southeast Alaska are excluded from obtaining allotments under the 
national forest exclusion expressed in P.L. 105-276. Since the only 
federal land in southeast Alaska is national forest land, and the 
largest concentration of Alaska Native veterans reside in southeast 
Alaska, the existing law unfairly excludes many deserving veterans. AFN 
recommends that Congress remove the national forest exclusion. Doing so 
will remove the most bizarre and unfair obstacle faced by Alaska Native 
veterans in their quest for allotments.
    3.  Expand the dates for eligibility for a veteran allotment: 
Current law unfairly excludes many deserving veterans even though they 
honorably served their country during the ``Vietnam era.'' Eligibility 
for a veteran allotment now requires that the veteran have served at 
least six months between January 1, 1969 and June 2, 1971 or was 
enlisted or drafted after June 2, 1971, but before December 3, 1971. 
However, this nation recognizes by law and policy that the ``Vietnam 
Era Conflict'' extended from August 5, 1964, to May 7, 1975. 
Eligibility for a veteran allotment should apply the same dates. 
Therefore, AFN recommends that the Alaska Native Veteran allotment 
qualifying dates be expanded to the entire Vietnam era; from August 5, 
1964 to May 7, 1975.
    4.  Apply legislative approval process to Alaska Native Veterans 
allotments: To be qualified for an allotment a veteran must now meet 
the extensive use and occupancy requirements of the Alaska Native 
Allotment Act of 1906, as amended. This means that Veteran applicants 
must now prove substantially continuous use and occupancy of the land 
for a period of five years that is potentially exclusive of others. 
This requirement has proven to be costly, often requiring a fact 
finding hearing. Legislative approval, made available to applicants of 
allotments under the Alaska Native Allotment Act of 1906, saves time 
and money because it eliminates administrative adjudication of use and 
occupancy.
    5.  Allow the heir(s) of a deceased veteran to apply for a veteran 
allotment: The heirs of veterans who died subsequent to their military 
service but before the veteran allotment application period opened were 
not able to apply for a veteran allotment even though the deceased 
veteran would have otherwise been qualified. AFN recommends that heirs 
of veterans who died subsequent to qualifying military service be 
allowed to apply for an allotment on behalf of the estate of the 
deceased veteran.
Best Kept Secret
    In its May 19, 2002, issue, The Anchorage Daily News printed a 
story on the Native Allotment Act of May 17, 1906 and I quote:
        ``On May 17, 1906, a law went into effect that has been 
        described by one legal specialist as ``the best-kept secret the 
        government has ever had.'' That was Alaska Legal Services 
        attorney Carol Yeatman's description of the Native Allotment 
        Act, which was originally enacted to provide up to 160 acres of 
        land to individual Alaska Natives.

        ``Although virtually all Alaska Natives were eligible to apply 
        for land that had been used by their families and other 
        relatives for subsistence purposes for generations, in the 
        first 64 years of the Act, only 245 allotments were approved, 
        according to Alaska Legal Services. Most Natives were unaware 
        of the law, and between language barriers and government red 
        tape, those who did apply for an allotment often faced 
        literally decades of waiting.'' <SUP>5</SUP>
---------------------------------------------------------------------------
    \5\ May 19, 2002 Edition of Anchorage Daily News
---------------------------------------------------------------------------
    AFN urges Congress to amend the Alaska Native Allotment Act and the 
Alaska Native Vietnam Veterans' Allotment Act to allow more Alaska 
Native Vietnam veterans to apply for and receive their Native 
Allotments.
    Thank you for inviting me to submit this statement; if you have any 
questions on my statement, I can field them at your call.
                                 ______
                                 

                      ALASKA FEDERATION OF NATIVES

                         2007 ANNUAL CONVENTION

                            RESOLUTION 07-06

 TITLE: A RESOLUTION OF CONTINUED SUPPORT OF AMENDING THE ALASKA NATIVE 
        ALLOTMENT ACT AND THE ALASKA NATIVE VIETNAM VETERANS ALLOTMENT 
        ACT
WHEREAS: The Alaska Federation of Natives continues to support the 
        rights of Alaska Tribal citizens to receive title to land under 
        the 1906 Alaska Native Allotment Act and the 1998 Alaska Native 
        Vietnam Veterans Allotment Act; and
WHEREAS: The Tribal working group consisting of 150 federally 
        recognized Tribal governments and nonprofit organizations in 
        Alaska, including Sitka Tribe, Yakutat Tlingit Tribe, Chilkat 
        Indian Village, Central Council of Tlingit and Haida Indian 
        Tribes, Inupiat Community of the Arctic North Slope, 
        Association of Village Council Presidents, Tanana Chiefs 
        Conference, Alaska Realty Consortium, Maniilaq Association, 
        Bristol Bay Native Association, Kawerak, Inc., and Alaska 
        Federation of Natives, Alaska Inter-Tribal Council, and Alaska 
        Legal Services Corporation, have drafted technical amendments 
        to allow more Alaska Native Vietnam veterans to apply for and 
        receive native allotments and to reopen allotment cases 
        rejected and closed under the decision in Shields v. United 
        States, 698 F.2d 987 (9th Cir. 1983); and
WHEREAS: The amendments to the Alaska Native Vietnam Veterans Allotment 
        Act of 1998, are necessary because this law contains too many 
        restrictions that very few veterans are eligible and under the 
        current Act very little land in Alaska is available to 
        veterans; and
WHEREAS: The amendments to reopen the allotments closed under the 
        decision in Shields is necessary to rectify the unfair 
        distribution of allotments in Southeast Alaska that resulted 
        because of the rule that applicants must personally use the 
        allotment land when most of the land in southeast Alaska was 
        withdrawn by 1909 for the Tongass National Forest which 
        encompasses almost 17 million acres; and
WHEREAS: Legislation amending the Alaska Native Vietnam Veterans 
        Allotment Act was introduced in 2007 into the U.S. House of 
        Representatives as H.R. 3350 but this legislation does not 
        include reopening the allotments closed under Shields and no 
        similar legislation has been introduced into the U.S. Senate; 
        and
WHEREAS: The Alaska State Legislature unanimously voiced its support of 
        amending the Alaska Native Vietnam Veterans Allotment Act and 
        reopening the Shields allotments with House Joint Resolution 
        number 27 which passed and was sent to Congress in 2006; and
NOW THEREFORE BE IT RESOLVED by the Delegates to the 2007 Annual 
        Convention of the Alaska Federation of Natives, Inc., that AFN 
        requests the Alaska Congressional Delegation to introduce 
        legislation to amend the Alaska Native Allotment Act of 1998, 
        and the Alaska Native Vietnam Veterans Allotment Act in order 
        to allow more Native allotments for Native Vietnam veterans and 
        to take actions that would move such legislation forward to a 
        vote in 2008.
BE IT FURTHER RESOLVED that AFN 2007 Delegates unanimously support the 
        passage of all Alaska Native Vietnam Veteran Allotment for 
        adjudication on Tongass/NPRA lands under the applicants of the 
        Alaska Native Vietnam who has applied under the provisional 
        Allotment Act of 1906.
SUBMITTED BY: AFN BOARD OF DIRECTORS
CONVENTION ACTION: PASSED AS AMENDED.
                                 ______
                                 
    The Chairman. Thank you very much.
    I will recognize the Ranking Member, Mr. Young, first.
    Mr. Young. Thank you. I want to thank the panel for their 
testimony.
    I would not have introduced these bills if I did not 
believe with all my heart they were justified, as each one of 
you believe they are correct.
    Stephanie, I am a little bit concerned because you heard 
the agency's testimony. They oppose it because they have all 
kinds of different reasons it upsets. You agreed to be a group 
instead of being recognized as a village, yada, yada, yada.
    Am I correct? Where were the hearings held for Alexander 
Creek?
    Ms. Thompson. In Anchorage.
    Mr. Young. In Anchorage. How far away is Alexander Creek 
from Anchorage?
    Ms. Thompson. Twenty-seven miles northwest.
    Mr. Young. Twenty-seven miles?
    Ms. Thompson. Right below Mt. Susitna.
    Mr. Young. And it is across water, is it not?
    Ms. Thompson. Across Cook Inlet, and the people there were 
never notified.
    Mr. Young. They were never notified. You have that 
documented?
    Ms. Thompson. We have that documented and then we 
petitioned them to reopen and they refused. That is how we----
    Mr. Young. They being the BLM?
    Ms. Thompson. The ANCAB. We petitioned them to reopen for--
--
    Mr. Young. Repeat that. What does that stand for?
    Ms. Thompson. Alaska Native Appeals Claims.
    Mr. Young. OK. But that was under the BLM?
    Ms. Thompson. Appeal Board.
    Mr. Young. That was under the BLM?
    Ms. Thompson. I believe so, yes.
    Mr. Young. Mr. Chairman, I am trying to get across this is 
a village. It was recognized as a village and then, because 
they didn't quite get all 36 or 30, whatever they had to do--
they had 22 witnesses. They said it is not a village anymore.
    You were offered a choice of being recognized as a group or 
nothing? Is that correct?
    Ms. Thompson. That is correct.
    Mr. Young. All right. Now, you guys wonder why this is a 
frustrating job. You fly all this way, and we have a bunch of 
stupid votes coming up right now. All right. I think that is 
it, I hope.
    You have talked to Mat-Su Valley. They do not object. Is 
that correct?
    Ms. Thompson. Yes. We have resolutions from the Mat-Su 
Valley, letters of support from the State of Alaska. We have 
resolutions from the Cook Inlet Region Villages. We have 
letters of support from Cook Inlet Region themselves.
    It has taken us awhile--it has been a long path--to get 
those and work with them. They all support us.
    Mr. Young. OK. AFN?
    Ms. Thompson. AFN also.
    Mr. Young. OK. And what I am leading up to is that the only 
people that object to this is in fact the BLM?
    Ms. Thompson. Correct.
    Mr. Young. Which is an agency which did not fulfill their 
obligations to the village when it recognized the village in 
the first enrollment and then disrecognized them, was given an 
ultimatum. Very frankly, I don't think your people knew what 
they were doing.
    Ms. Thompson. They didn't.
    Mr. Young. They did not know that.
    Mr. Chairman, we have a state of 365 million acres in the 
State of Alaska. There are only 44 million acres of Native 
land. The villages were guaranteed that land, the 44 million 
acres of land. Right now the people who object to it are those 
that have Federal control of it, which frustrates me.
    The question of the letter from Cook Inlet. I was a little 
bit surprised also because the last time I heard that they did 
support it--in fact, they were bugging me to get this thing 
done, and then we got this letter. You have hashed that out 
now?
    Ms. Thompson. We have hashed it out. What we had is we had 
new language that has not yet been circulated to this committee 
that we were still working on. They had gotten a hold of that 
language and had some concerns and hadn't been able to get a 
hold of our people, so they put their concerns there.
    We immediately got a hold of them. We were able to work 
together and resolve those concerns and now look forward to 
working together with them.
    Mr. Young. All right.
    Ms. Thompson. I also wanted to make a point. Up to this 
day, Alexander Creek has only received 1,680 acres of land.
    Mr. Young. But they did receive that for the village, 
right?
    Ms. Thompson. That is it. Yes.
    Mr. Young. And that is why if they received that for the 
village they should receive the full amount, which every 
village got.
    Ms. Thompson. Yes.
    Mr. Young. That is what I don't understand is 1,000 acres.
    Nelson, good presentation. You heard again the agency 
opposing this. I couldn't understand what their objection was. 
They said it would divide the Native groups, the veterans. It 
is my understanding there is nobody who objects to what we are 
asking to do.
    Mr. Angapak. Mr. Chairman, from the standpoint of the 
Native community, in our recent AFN convention there was a 
resolution passed, unanimously passed by the delegates to the 
AFN convention supporting the passage of this bill. There is no 
opposition from the Alaska Native community insofar as this 
bill is concerned.
    Mr. Young. And you said there were only 10 of the 750 
applicants have been accepted?
    Mr. Angapak. Mr. Chairman, 741 veterans applied for Native 
allotments. To date, only 10 have been certified. That is why 
we are seeking legislative approval of those allotments.
    Mr. Young. Of the ones that applied; just not the 10?
    Mr. Angapak. You are right.
    Mr. Young. Right. If all of them were to be agreed to, 
there would be 160,000 acres of land given to individuals out 
of 365 million.
    I agree, Mr Chairman, with Nelson. These are veterans who 
were in Vietnam and didn't have the opportunity to file for an 
allotment prior to the closure of the Enactment Act, which 
passed in 1906. They closed it down I believe in 1998.
    Mr. Angapak. Mr. Chairman, Section 18 of the Alaska Native 
Claims Settlement Act and the ability of the Alaska Natives to 
apply for allotments. As you stated, a great majority or many 
of our veterans were overseas defending this nation and were 
not given the opportunity to apply for those allotments.
    Mr. Young. All right. Mr. Chairman, if I may, this is a 
bill we passed once in 1998, and we thought we were doing the 
right thing.
    Again, as I said in my opening statement, the biggest 
opponents to anything we do for the Alaska Natives is the 
government itself, which is supposed to be part of the trust 
responsibility. Every time we turn around, any type of 
allotment, they object to it. I can go on through the line, but 
that is the reason that this bill should be passed.
    Julie and Paul both, on this Millennium you are just asking 
for authorization in this bill? Because we don't have any 
appropriation authority.
    Ms. Kitka. Yes. No, we are just asking for authorization in 
this bill.
    Mr. Young. I have to say, the reason at point I handed this 
to the Chairman, just in southeast Alaska we have an average 
rate of unemployment in southeast Alaska of 62 percent. Around 
the state I am not exactly sure how high it is, but it is quite 
high.
    Like you say, although progress has been made something 
like this could probably--Paul, you have been around--expedite 
the ability to increase the monetary goal, as well as the 
standard of living in these villages primarily.
    Paul, if you can just comment, and then I will shut up. I 
didn't tell you to shut up. I said I will shut up.
    Mr. Applegarth. You certainly don't need to shut up.
    Mr. Young. Yes.
    Mr. Applegarth. These programs are really built on lessons 
of 50 years of foreign aid, what has worked and what hasn't 
worked. One of the most important things that works is 
ownership by the beneficiaries.
    This is really to demonstrate how you translate that 
domestically where the potential beneficiaries decide what the 
priorities are. They set the goals, how they are going to be 
measured, and then take ownership of the actual implementation, 
so your building capacity.
    You are really having a long-term, sustainable effect on 
poverty reduction and sustainable growth, so you are going to 
have the kind of impact you talked about in the target areas 
here.
    Mr. Young. Mr. Chairman, unless someone wants to comment 
from the panel, I don't have any further questions at this 
time. Anybody? Julie?
    Ms. Kitka. Mr. Chairman, Congressman Young, I just wanted 
to clarify.
    Even though my testimony was just on H.R. 3351, the Alaska 
Federation of Natives supports each one of the bills that is on 
the agenda for the hearing.
    Mr. Young. Thank you, Julie, because that is what I was 
concerned. I kept hearing from the Administration that the 
Natives disagree with that, da-da-da-da.
    One of the premises we have had is this has been 
communicated with all the different groups and it is supported 
by AFN. You know, to have an agency come in and say well, it 
will divide, it will separate out people, and I don't know if 
you have a copy of the testimony. Read what they say.
    I can take this back 30 years and just insert a different 
date, and it will be the exact same testimony from the same 
agency. That, you know, just frustrates the daylights out of me 
because they are not looking at the issue and the justice of 
the issues. They are just looking at what their pat answer is 
from the agency. They have no imagination at all. They say no 
to everything.
    Mr. Chairman, I have no further questions.
    The Chairman. Yes, sir?
    Mr. Angapak. Mr. Chairman, for the record I would like to 
request that if it is possible to keep the record of the 
hearing on H.R. 3350 open----
    The Chairman. Yes.
    Mr. Angapak.--to give our veterans and other concerned 
citizens an opportunity to comment. Thank you very much.
    The Chairman. Yes. As is normal practice, Nelson, the 
record will remain open for 10 days for any submission of 
materials the panel would like to submit.
    Any other comments from the panel?
    [No response.]
    The Chairman. Again, we thank you.
    Mr. Young. We have to vote. We will come back. How many 
votes do we have?
    The Chairman. Three this series.
    Mr. Young. So we will probably be back here maybe at 1:30?
    The Chairman. Correct.
    Mr. Young. And then we will have the Sealaska panel put 
back on?
    The Chairman. Correct.
    Mr. Young. OK. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    The Committee is in recess.
    [Recess.]
    The Chairman. The hearing will reconvene.
    Our final panel is composed of Byron Mallott, board member 
of the Sealaska Corporation, accompanied by Chris McNeil, Jr., 
President and CEO of Sealaska Corporation; and Mr. Buck 
Lindekugel, Conservation Director of the Southeast Alaska 
Conservation Council, accompanied by Don Hernandez of Pt. 
Baker, Alaska.
    Gentlemen, we welcome you to the Committee. We appreciate 
your traveling as you have to be here. You may proceed in the 
order I announced.
    Mr. Young, do you wish to make any comments?
    Mr. Young. No.
    The Chairman. OK.

STATEMENT OF BYRON MALLOTT, BOARD MEMBER, SEALASKA CORPORATION, 
ACCOMPANIED BY CHRIS McNEIL, JR., PRESIDENT AND CHIEF EXECUTIVE 
                 OFFICER, SEALASKA CORPORATION

    Mr. Mallott. Thank you, Mr. Chairman, Congressman Young, 
Members of the Committee.
    H.R. 3560 is all about finalizing the land claims 
settlement in southeast Alaska. We received--that is Sealaska 
Corporation received--just one percent of the lands that were 
made available to settle land claims while having some 20 
percent of the population of the Alaska Native community at the 
time of settlement.
    Thirty some years have passed, and we are seeking to 
finalize our land selections within our region. We have made an 
effort to be responsive to not just the land claims that drive 
this process and that bring us to where we are today, but to 
try to be responsive to more broad public policy needs within 
the Tongass National Forest, and thus we seek to select lands 
outside of the circumscribed withdrawal areas authorized by the 
Alaska Native Claims Settlement Act.
    We also have emphasized and seek to select some 270 plus 
sacred sites within the region, some 276 sacred sites of more 
than 1,000 that we have identified. We seek to do that as part 
of this bill because some 30 years after our initial selections 
we find that what we thought would happen--that is, there would 
be protection of these sacred sites if they remained within 
Federal jurisdiction; that that has not been the case.
    We have seen where sacred sites have been used as objects 
of tourism, certainly as objects of curiosity. Some have been 
desecrated and so this added emphasis on acquiring those sites 
in Native ownership as opposed to continuing Federal 
jurisdiction.
    We have also tried to be responsive to public policy needs 
by having very small, restricted sites selected for 
nonconsumptive economic enterprise within the region that 
allows us to again select outside withdrawal areas in order to 
hopefully attract very modest, nonconsumptive economic 
enterprise to places near our villages.
    Sealaska as a region and as a people encompass over a dozen 
villages within our region. I want to emphasize also that 
Sealaska as an institution, Sealaska Corporation, is an 
economic development tool. Since passage of the Land Claims 
Settlement Act and the selection of lands within our region, 
Sealaska has shared over $300 million with other regions 
throughout the state in order to assist them in meeting the 
economic and social public policy purposes of the Alaska Native 
Claims Settlement Act.
    This bill more than anything else is about who we are as 
Native peoples, and what we find again 30 years after the 
passage of the Alaska Native Claims Settlement Act is that we 
have learned many lessons. The key lesson is that we 
continually need to remind those who manage public lands within 
the Tongass, those who create policy and regulatory regimes 
within the Tongass National Forest, that this is a native 
place.
    It is the home of the Tlingit, Haida and Tsimshian peoples; 
that we desire to be both productive citizens of the forest, 
but at the same time we want our nativeness to be recognized 
and respected and hopefully ultimately celebrated.
    Mr. Chairman, I believe personally very strongly that if a 
century from now we look back on the Tongass Forest and 
although we may have protected critical lands, critical 
resources, critical habitats within the forest, which we as 
Native people support, as well as other citizens of the United 
States, but if the people are not there, the first peoples of 
the Tongass are not there, that public policy will be regarded 
by history as a failure.
    We do not want that to happen. We don't think that the 
Congress of the United States or the people of the United 
States want that to happen either and so we come before you 
wanting to meet the obligations and the responsibilities we 
have to our shareholders; not just the shareholders in the 
corporation, but as Native peoples of the region with more 
flexibility, with more forward thinking than otherwise might be 
the case.
    We could take our selections from within the existing ANCSA 
withdrawal areas and it would put us hard upon intact 
watersheds, roadless areas, old growth resources and a very 
arbitrary sort of selection process. We have tried to avoid 
that, having for many years engaged in conversations with the 
environmental community, with the U.S. Forest Service, with our 
own people obviously, but with other users and those with a 
consuming interest in the Tongass.
    We hope that this bill presents an opportunity to continue 
that process, to be good citizens of the forest, but we also 
want this bill, Mr. Chairman, to recognize who we are as Native 
peoples, the first peoples of the forest who are trying to meet 
a cherished and almost spiritual obligation to our own peoples.
    Thank you very much.
    [The prepared statement of Mr. Mallott follows:]

     Statement of Byron Mallott, Board Member, Sealaska Corporation

    Mr. Chairman and Members of the Committee:
    My name is Byron Mallott, and I am a Board Member for Sealaska 
Corporation, as well as a former President and CEO. I am from Yakutat, 
Alaska, and I am Shaa-dei-ha-ni (Clan Leader) of the Kwaashk'i Kwaan. 
My Tlingit name is K'oo deel taa.a. Accompanying me today at the 
witness table, to help answer questions, is Chris McNeil, the President 
and CEO of Sealaska. In the audience, we also have additional Sealaska 
Board Members--Dr. Rosita Worl; and Clarence Jackson of Kake, Alaska.
    Thank you for the opportunity to testify on behalf of Sealaska 
Corporation regarding H.R. 3560, the ``Southeast Alaska Native Land 
Entitlement Finalization Act,'' or what we refer to as Haa Aani, which 
in Tlingit means ``Our Land''. Sealaska is the Alaska Native Regional 
Corporation for Southeast Alaska--one of 12 Regional Corporations 
established pursuant to the Alaska Native Claims Settlement Act 
(``ANCSA''). Our shareholders are descendants of the original 
inhabitants of Southeast Alaska--the Tlingit, Haida and Tsimshian 
people.
    We provide significant economic opportunities for our shareholders 
and for the Southeast Alaska region through the development of our 
primary natural resource--timber. The profits from this development 
have allowed us to diversify our economic portfolio and to invest in 
cultural preservation, educational scholarships and internships for our 
shareholders and shareholder descendants. Through these efforts we have 
seen a resurgence of Native pride in our culture and language, most 
noticeable in our youth who are constantly defining what it means to be 
native today. Our scholarships, internships and mentoring efforts have 
been successful beyond our wildest dreams, with our corporate 
shareholder employment at 85 % and shareholders filling the most senior 
positions in our corporation. None of this would have been possible 
without the passage of ANCSA, which, in some ways, remains a promise 
unfulfilled.
    Congress enacted ANCSA in 1971 to recognize and settle the 
aboriginal claims of Alaska Natives to the lands that we have used 
since time immemorial for traditional, cultural, and spiritual 
purposes. ANCSA allocated 44 million acres of land to Alaska's Native 
people, to be allocated among and managed by the 12 Alaska Native 
Regional Corporations and more than 200 Village Corporations. Although 
ANCSA declared that the land settlement ``should be accomplished 
rapidly, with certainty [and] conformity with the real economic and 
social needs of [Alaska] Natives,'' it has now been more than 35 years 
since the passage of ANCSA and Sealaska has not yet received conveyance 
of its full land entitlement.
    Sealaska asks your support for the enactment of H.R. 3560 because 
it:
    <bullet>  provides some finality regarding its ANCSA land 
entitlement;
    <bullet>  will redress inequitable limitations on Sealaska's land 
selections by allowing it to select its remaining land entitlement from 
designated federal land outside of designated withdrawal areas;
    <bullet>  allows for Alaska Native ownership of sites with sacred, 
cultural, and historical significance to the Alaska Natives of 
Southeast Alaska;
    <bullet>  creates the opportunity for Sealaska to maintain a 
sustainable economy and to further economic and employment 
opportunities for Sealaska shareholders;
    <bullet>  provides a platform for Sealaska to contribute to the 
Southeast Alaska economy, a region that is struggling overall, but 
especially in our rural Native villages; and
    <bullet>  provides real conservation benefits in the region.
    In sum, the bill resolves the long outstanding Sealaska entitlement 
issues in a manner consistent with the Congressional objectives of 
ANCSA, and enables the federal government to complete its statutory 
obligation to the Natives of Southeast Alaska under ANCSA.
    There is a compelling basis for this legislation to pass. First, 
the original ANCSA withdrawals demonstrated a lack of understanding of 
the geography of the region, and a series of congressional actions 
further undermined the quality of the lands that were available for 
selection by Sealaska. For example, over 44% of the area within the 
withdrawal areas is water. Second, there is no dispute that Sealaska 
has a remaining land entitlement. This legislation does not give 
Sealaska additional land beyond that already promised by Congress. 
Third and finally, Sealaska has attempted to work closely with 
industrial users, environmental organizations, Native institutions, and 
local communities to craft legislation that provides the best result 
for the people, communities and environment of Southeastern Alaska. One 
thing has become extremely clear in this effort--that every acre of 
Southeast Alaska is precious to someone. Moreover, what is important to 
one group is not important to another. Simply put, with the vast array 
of interests, there is no way to achieve a complete consensus on where 
and how Sealaska should select its remaining entitlement. We believe 
that this legislation offers a good solution, but we remain committed 
to work with everyone to refine the selections.
Our ANCSA Land Entitlement and Selection Limitations
    ANCSA provides a land allocation to Sealaska pursuant to Section 
14(h)(8) of the Act. Our right to this land entitlement is undisputed. 
The only question is ``where'' this land will come from. Our 
understanding of Bureau of Land Management projections for completion 
of 14(h)(8) is that there are between 65,000 and 85,000 acres of land 
remaining to be conveyed to Sealaska. ANCSA limits Sealaska land 
selections to withdrawal areas surrounding certain Native villages in 
Southeast Alaska. The problem is that there are no lands remaining in 
these withdrawal areas that meet Sealaska's traditional, cultural, or 
historic needs, and certain of those lands should more appropriately 
remain in public ownership. The remaining valuable timber areas within 
the selection areas are predominantly old growth and roadless areas 
with important public interest values. Large portions should remain 
undeveloped because of proximity to local communities or to subsistence 
resources; and much of the original withdrawal area would require 
Sealaska to construct additional logging roads, further diminishing the 
number of roadless acres in the region.
    The current ANCSA selection limitations preclude Sealaska from 
using any of its remaining ANCSA land settlement to select places of 
sacred, cultural, traditional, and historic significance located 
outside the withdrawal areas that are critical to facilitate the 
perpetuation and preservation of Tlingit, Haida and Tsimshian culture 
and history. Moreover, selection from the withdrawal areas would not 
allow Sealaska to meet the purposes of ANCSA--to create continued 
economic opportunities for the Native people of Southeast Alaska.
Legislative Solution Provided by H.R. 3560
    While the lands within the original withdrawal areas are inadequate 
to meet Sealaska's traditional, cultural, historic and socioeconomic 
needs, these lands are not without significant and important public 
interest value. For example, approximately 85 percent are classified by 
the United States Forest Service as designated roadless areas. A 
significant portion is Productive Old-Growth forest, with over half of 
that being Old Growth Reserves as classified in the Tongass Land 
Management Plan. This legislation would allow these lands to remain in 
public ownership to be managed consistent with the Tongass Forest Plan.
    The legislation would then allow Sealaska to select a portion of 
its remaining entitlement from an alternative pool of land, 77 percent 
of which is already roaded and mostly second-growth forest. Moreover, 
this legislation would allow Sealaska to use a portion of its 
entitlement to gain title to important cultural, historical, and 
recreational sites that are important to the preservation of Native 
history and culture, and to advance Native social and cultural 
programs. These sacred, cultural and historic sites are relatively 
small in size, but are invaluable to our people. Lastly, the 
legislation would allow Sealaska to select certain lands for purposes 
of Native enterprise, which is primarily for activities with limited 
land use impacts and would include cultural programs and small-scale 
tourism/eco-tourism, which would allow Sealaska to diversify its 
economic portfolio and provide job opportunities for its shareholders 
and other residents of Southeast Alaska.
    This legislation does not address what Sealaska's final land 
entitlement will be, leaving the final iterations of the final acreage 
to the usual ANCSA section 14(h) processes. Sealaska at the urging of 
some Administration officials is, however, engaging in discussions with 
the appropriate parties to possibly develop a final acreage amount 
prior to final enactment of this legislation.
Benefits of the Legislation to Others
    The benefits of this legislation extend far beyond Sealaska and its 
shareholders. Despite Sealaska's small land base in comparison to all 
other Regional Corporations, Sealaska has historically provided 
significant economic benefits to not only Sealaska Native shareholders, 
but also to the other Native Corporations throughout Alaska. Pursuant 
to a revenue sharing provision in ANCSA, Sealaska distributes 
considerable revenues derived from development of its timber 
resources--more than $300 million between 1971 and 2005--to the other 
Native Corporations. By making selections outside of the designated 
withdrawal areas, Sealaska will be able to sustain its resource 
development operations by acquiring a mix of mature and advanced second 
growth, enabling it to provide continued economic opportunities for the 
Native people of Southeast Alaska and economic benefits to the broader 
Alaska Native community through revenue sharing. For that reason, 
Sealaska has the support of the Alaska Federation of Natives, and the 
Tlingit and Haida Indian Tribes, among others.
    The role of Sealaska in the Southeast Alaska economy is undisputed. 
Sealaska's timber operations provide significant positive economic 
impact to the region, including continued utilization of the timber 
harvesting sector and creation of jobs in some of the poorest rural 
Native communities in our region. For that reason, Sealaska has the 
support of the Alaska Forest Association and several Native villages in 
its efforts to complete its ANCSA land entitlement.
    We also see a benefit to the conservation community through 
enactment of this legislation. In lieu of old growth, roadless areas in 
the original withdrawal areas, Sealaska would take a majority of its 
remaining entitlement from areas that are already roaded, with largely 
second-growth timber. Moreover, Sealaska would use nearly 9,000 acres 
of its remaining entitlement to gain title to sacred, historic, and 
cultural sites, and Native enterprise sites, on which there would be no 
commercial timber harvest. Southeast Alaska tribes, and Native Village 
and Urban Corporations have passed resolutions in support of this 
legislation because they recognize the need to preserve our sacred 
areas and culture, and to create local, sustainable, diversified 
economies. This legislation gives them the opportunity to join with 
Sealaska to do both.
    Lastly, there will be a benefit to the federal government to 
finally complete the ANCSA land entitlement conveyances for the Native 
Regional Corporation for Southeast Alaska. This would give the Bureau 
of Land Management some finality and closure in the region. It would 
also allow give the Forest Service some finality in its land ownership 
and management in the Tongass National Forest because there would no 
longer be large portions of the forest encumbered by Native land 
selection rights.
Haa Aani Sustainable Forest Management Program
    At the core of Sealaska's land management is the perpetuation of a 
sustainable, well-managed forest to produce timber and to maintain 
forest ecological functions. Over 27% of Sealaska's classified forest 
lands are maintained in a natural state to protect fish habitat and 
water quality, to provide municipal drinking water and for protection 
of bald eagle nesting habitat. Our sustainable harvesting program will 
continue into the future by implementing good forest management 
practices and by completion of our Haa Aani land selections that will 
provide Sealaska with a mix of old growth and more mature second growth 
timber. Our harvesting program and investing in good forest management 
provides jobs for our shareholders and others in the region, and helps 
maintain the ecological values in our forests.
    In asking for your support of this legislation we are taking a huge 
risk by foregoing assured revenue from the harvesting of old growth 
timber from the originally withdrawn lands. We are also removing nearly 
9,000 acres from timber base by selecting cultural and enterprise sites 
subject to timber harvest restrictions. Our selections from which 
timber harvest would be allowed are primarily from second-growth forest 
stands with only emerging markets. We believe, however, that we are on 
the cusp of a significant paradigm shift in our forest management. We 
are committed to investing the time, money and hard work in progressive 
management of second growth stands, to capture alternative economies 
from forest management and to ensure that our place in the timber 
industry remains a sustainable, although realigned, component of the 
region's economy.
    We are also creating alternative economies, revenues, and jobs from 
forest management strategies that include providing free enterprise 
markets for the purchase of ecological services. Moreover, we are 
monitoring developments related to climate change and carbon dioxide 
sequestration. In fact Sealaska testified just last week before the 
Senate Committee on Commerce, Science and Technology's Subcommittee on 
Science, Technology and Innovation, on the role of forest owners and 
opportunities for carbon sequestration in our forests.
Diversified Economies
    This legislation would allow Sealaska to pursue more diversified 
economies and jobs for the communities in Southeast Alaska by 
preserving and sharing the richness of Southeast Alaska's natural and 
cultural history. The Sacred sites and the Enterprise sites offer a new 
opportunity for our region. It is not just the forest ecosystem, but 
the people it nourishes that defines the place. The declaration that 
this is a ``Native'' and ``Scenic'' place will ultimately protect it 
and proclaim its value to the world.
    We are offering new ideas by selecting sacred and enterprise 
properties as part of an economic revitalization for our native and 
rural communities. With these new ideas, there are palpable concerns 
over the use and management of these sites. Sealaska would like to 
offer our principles for the use and management of these sites:
    <bullet>  Sacred sites. These sites will be selected and managed to 
ensure an active Native role in the preservation and celebration of the 
rich Native fabric and history of Southeast Alaska. The sites are 
purely for historic, cultural and anthropologic preservation, research 
and education.
    <bullet>  Enterprise sites. These sites will be selected and 
managed to promote recreational activities with little land use 
impacts, and for ecologically sensitive, non-consumptive uses to 
demonstrate the very best attributes of the Tongass Forest's beauty and 
spirituality, which will ultimately strengthen public support to 
protect this last great place and the people and their culture who make 
it unique among forests of the world.
Our Future in the Region
    Our people have lived in the area that is now the Tongass National 
Forest since time immemorial. We will continue to live in this region 
because it is the heart of our history and culture. The Tongass is rich 
and diverse in cultural history, and there continue to be Native people 
here trying to live and survive in a subsistence and cash economy. We 
agree that areas of the region should be preserved, but also that our 
people have a right to pursue economic opportunities to survive in the 
world as it is today. This legislation is a sincere and open effort to 
meet both the interests of Alaska Native shareholders and the public. 
Sealaska believes that after full debate and close scrutiny, its 
aspirations to meet both its rightful land selection rights under ANCSA 
and the public interest in the Tongass will be recognized as both 
forward thinking and positive.
    Lastly, it is important for all of us who live in the Tongass, as 
well as those who cherish the Tongass from afar, to recognize that the 
First Peoples of the Tongass--Tlingits, Haidas and Tsimshians--are 
committed to maintaining not just the flora, fauna and biological 
ecology of the Tongass, but to preserving this place as the land of our 
ancestors, with all that means in spirituality, values and beliefs. We 
have nowhere else to go and wish for no other place. The Tongass is our 
home. We, therefore, look forward to a reasoned, open, and respectful 
process as we attempt to finalize our ANCSA land entitlement.
    Gunalcheesh. Thank you.
                                 ______
                                 
    The Chairman. Thank you.

STATEMENT OF BUCK LINDEKUGEL, CONSERVATION DIRECTOR, SOUTHEAST 
ALASKA CONSERVATION COUNCIL, ACCOMPANIED BY DON HERNANDEZ, PT. 
                         BAKER, ALASKA

    Mr. Lindekugel. Good afternoon, Mr. Chairman. Congressman 
Young. My name is Buck Lindekugel, and I am the Conservation 
Director for the Southeast Alaska Conservation Council. Thank 
you for inviting SEACC to testify at today's hearing.
    Accompanying me today is Don Hernandez from the community 
of Pt. Baker on North Prince of Wales. Mr. Hernandez will be 
available to assist me in answering any questions you may have.
    Founded in 1970, SEACC is a grassroots coalition of 15 
volunteer conservation groups made up of local citizens in 13 
Alaska communities from Craig on Prince of Wales to Yakutat. 
SEACC is dedicated to preserving the integrity of southeast 
Alaska while providing for balance and sustainable uses of the 
region's resources.
    We respect the efforts of Congressman Young to stand up for 
the interests of Alaska Natives throughout his tenure in the 
U.S. House of Representatives. Like Congressman Young and H.R. 
3560's other distinguished co-sponsors, SEACC supports 
completing the conveyance of Sealaska's land entitlement under 
the Alaska Native Claims Settlement Act.
    Nonetheless, we do not believe Sealaska Corporation is 
entitled to change the rules and cherry pick valuable public 
lands across southeast Alaska without the full involvement of 
affected interest.
    The 22 pages of H.R. 3560 substantively change the way 
existing Federal laws, regulations and policies apply to the 
conveyance of Sealaska Corporation's remaining entitlement 
under the Settlement Act. Consequently, we oppose H.R. 3560 as 
introduced. We do remain committed, however, to maintaining an 
open dialogue with Sealaska Corporation, Congressman Young and 
the bill's co-sponsors to try and resolve our concerns.
    Most importantly, we wish to emphasize that if Congress 
chooses not to act on this proposed legislation, Sealaska 
Corporation still gets all the land it is entitled to under the 
Settlement Act.
    Sealaska Corporation may not like any of the 327,000 acres 
remaining available for selection from the Tongass that was 
withdrawn by Congress. It may not be able to make as much money 
from the remaining lands, and its shareholders still living in 
the affected villages may not want any more intensive logging 
on lands surrounding the villages. None of those factors, 
however, obligate Congress to give Sealaska a better deal now, 
36 years after passage of the Settlement Act.
    This legislative hearing is the first public process 
conducted relating to this proposal. Typically such a large 
land exchange would involve full disclosure of the action's 
effects on the environment, affected communities and 
individuals through the NEPA process. That process provides an 
opportunity for the affected public to inform themselves about 
the proposed action and fully participate in evaluating the 
action's effects.
    I know Sealaska earlier tried to follow that path, and for 
some reason that was stopped. Whether it was the Federal 
government's lack of interest or a desire to speed the process 
up, we think it messes with the way of resolving this. It puts 
you guys in an unenviable position of making complicated 
decisions on such a proposal without the information that could 
be gathered to that public process.
    With the Chair's permission, we request to submit a number 
of statements from affected communities and individuals who 
have learned about this bill that we have received over the 
past 10 days into the hearing record at this time.
    The Chairman. Without objection.
    Mr. Lindekugel. Thank you, sir, and thank you for the 
opportunity to testify today.
    I myself and Don would be happy to answer any questions 
that you may have.
    [The prepared statement of Mr. Lindekugel follows:]

         Statement of Buck Lindekugel, Conservation Director, 
                 Southeast Alaska Conservation Council

    The Southeast Alaska Conservation Council (SEACC) submits the 
following statement regarding H.R. 3560, the Southeast Alaska Native 
Land Entitlement Finalization Act. SEACC respectfully requests that 
this written statement and accompanying material be entered into the 
official record of this Committee hearing.
    Founded in 1970, SEACC is a grassroots coalition of 15 volunteer, 
non-profit conservation groups made up of local citizens in 13 
Southeast Alaska communities that stretch from Craig on Prince of Wales 
Island north to Yakutat. Our individual members include commercial and 
sport fishermen, Alaska Natives, tourism and recreation business 
owners, small-scale high value-added wood product manufacturers, 
hunters and guides, and Southeast Alaskans from all walks of life. 
SEACC is dedicated to preserving the integrity of Southeast Alaska's 
unsurpassed natural environment while providing for balanced, 
sustainable uses of our region's resources.
    Congressman Don Young, along with several distinguished colleagues, 
introduced H.R. 3560 on September 18, 2007. We respect the efforts of 
Congressman Young to stand up for the interests of Alaska Natives 
throughout his tenure in the U.S. House of Representatives. Like 
Congressman Young and H.R. 3560's other cosponsors, SEACC supports 
completing the conveyance of Sealaska Corporation's land entitlement 
under the Alaska Native Claims Settlement Act (ANCSA). Nonetheless, we 
have serious reservations about the changes in federal law proposed in 
H.R. 3560 and oppose the bill as introduced. We remain committed, 
however, to maintaining open lines of communication with Sealaska 
Corporation and the bill's sponsors to finalize the conveyance of 
Sealaska Corporation's outstanding statutory land entitlement. 
Consequently, we offer the Committee these preliminary comments for 
your consideration as you begin your review of this legislative 
proposal.
 H.R. 3560's Proposed Findings and Purpose Tell Only Part of the Story.
    The findings contained in section 2 of H.R. 3560 are drafted to 
imply that Congress treated Sealaska Corporation unfairly, unjustly, 
and inequitably from other regional Native corporations in Alaska. See 
also 153 Congressional Record E1913 (Sept. 18, 2007)(Congressman 
Young's introductory statement that ``[t]his legislation will redress 
the inequitable treatment of the Native Regional Corporation for 
Southeast Alaska--Sealaska Corporation....''). We respectfully disagree 
and believe the bill's proposed findings and purpose tell only part of 
the story.
    We recognize that the Native shareholders of Sealaska Corporation 
have long histories and traditions in Southeast Alaska. We further 
recognize the important benefits to Natives from owning lands important 
for customary and traditional (subsistence) uses and the significant 
cultural, economic, and social effects from development of village and 
regional Native corporation lands.
    In ANCSA, Congress converted the communal, aboriginal claims of 
Alaska Natives into individual private property represented by shares 
of stock in over 200 Native regional, village, urban, and group 
corporations. See Case and Voluck, Alaska Natives and American Laws, 2d 
ed at 157 (2004). To accomplish this, Congress awarded approximately $1 
billion dollars and 44,000,000 acres of federal land in Alaska to the 
village and regional Native corporations.
    Just like the other regional Native corporations, Sealaska 
Corporation's per capita share of lands under section 14(h)(8), 43 
U.S.C. Sec. 1613(h)(8), came from unselected lands withdrawn by 
Congress for that purpose. In Southeast Alaska, those lands were 
withdrawn from the Tongass National Forest around 10 qualifying 
Southeast Alaska Native villages. Sealaska Corporation received the 
right to more lands (a total of 354,389.33 acres) pursuant to section 
14(h) than any of the other regional Native corporations, because 
Sealaska Corporation had more shareholders than any other region. See 
70 Fed. Reg. 77179-180 (Dec. 29, 2005)(notice of decision allocating 
additional acreage to Native regional corporations in Alaska). In 
addition, just like other regional corporations, Congress granted 
Sealaska Corporation the subsurface (or mineral) estate in lands 
selected by qualifying Southeast Alaska village corporations. 43 
U.S.C.A. Sec. 1613(f).
    Sealaska also benefited from a couple of significant advantages not 
enjoyed by the other regional corporations. First, although Alaska is 
rich in natural resources, those resources are not evenly distributed 
across all regions of the state. Fortunately for Sealaska Corporation, 
the southeast region has massive stands of old-growth forest in the 
world's greatest remaining temperate rainforest. Sealaska Corporation 
received over 220,000 acres of mature forest land, pursuant to section 
14(h)(8) of ANCSA, from lands withdrawn from the Tongass National 
Forest. Sealaska Corporation's 14(h)(8) land selections have made it 
one of the largest private timber-owners in the State of Alaska. 
<SUP>1</SUP> Second, in addition to the wealth in land resources that 
Sealaska Corporation conveyed under ANCSA, it received more money--$93 
million dollars--than any other regional corporation because it had 
more shareholders.
---------------------------------------------------------------------------
    \1\ See ANCSA 1985 Study at III-54.
---------------------------------------------------------------------------
    Since 1979, Sealaska Corporation has clearcut over 3.5 billion 
board feet of timber from its land and exported the vast majority of it 
out of state as raw, unprocessed logs. <SUP>2</SUP> Thus, although 
Sealaska Corporation received less than one percent (1%) of all the 
lands conveyed to village and regional corporations under ANCSA, it 
shared more than $300,000,000 in revenues with the other Native 
corporations in Alaska. See H.R. 3560, Sec. 2(a)(8). To help put 
Sealaska Corporation's success in relative terms, the $300,000,000 is 
42% of all the money contributed by all 13 regional native corporations 
under an ANCSA revenue sharing agreement.
---------------------------------------------------------------------------
    \2\ See Sealaska Timber Corporation website at: http://
www.sealaskatimber.com/About_STC.htm# and Sealaska News and Information 
website at: http://www.sealaska.com/aboutus_news_2003.htm (announcing 
receipt of the Governor's Exporter of the Year award).
---------------------------------------------------------------------------
 H.R. 3560 Appears to Conflict with the Process Adopted in the Alaska 
        Land Transfer Acceleration Act, Pub. Law 108-452, for 
        Finalizing Regional Corporation Land Entitlements.
    In 2004, Congress enacted a law to facilitate completion of the 
transfer of lands in Alaska pursuant to ANCSA, the Alaska Statehood 
Act, and other laws. See Alaska Lands Transfer Acceleration Act 
(ALTAA), Pub. Law 108-452, 118 STAT. 3575 (Dec. 10, 2004). Two 
provisions of this important law appear to conflict with the 
conveyances proposed in H.R. 3560 to finalize Sealaska Corporation's 
land entitlement under Section 14(h) of ANCSA.
    Section 3(b)(2) of H.R. 3560 authorizes the conveyance of no more 
than 2,400 acres of 54 sacred, cultural, traditional, or historic sites 
from within existing withdrawal areas and another 198 sites outside the 
existing withdrawal areas. Yet, Section 204 of ALTAA, 118 STAT. 2584, 
froze the cemetery and historical place program under section 14(h)(1) 
of ANCSA to pending applications for sites eligible for conveyance. No 
information is provided in H.R. 3560 as to whether Sealaska Corporation 
had previously filed timely applications with BLM for the nearly 200 
sites identified in Attachment B to H.R. 3560. It is also unclear 
whether BLM determined that the applications for the proposed sites 
were valid and eligible for conveyance to Sealaska Corporation, or the 
content of any comments from the Forest Service or National Park 
Service to BLM on the applications.
    Section 205 of ALTAA, 118 STAT. 3585, amended Section 14(h)(8) of 
ANCSA to quantify the final acreage of lands to be distributed to the 
Regional Corporations under Section 14(h). This provision directed the 
Secretary of Interior to allocate to a Regional Corporation ``as soon 
as practicable'' its share of 200,000 acres ``from land withdrawn under 
[section 14(h)(8)].'' Now, three years later, Sealaska is asking 
Congress to reopen ANCSA to authorize selection of lands that were not 
withdrawn for that purpose. Why was the issue about whether it was 
appropriate for Sealaska to select its remaining entitlement outside of 
the existing ANCSA withdrawals on the Tongass National Forest addressed 
during Congressional deliberations over ALTAA?
 The Proposed Out-of-Withdrawal Selections for Economic Development 
        Lands Target a Disproportionate Amount of the Most Ecologically 
        Productive Lands in Southeast Alaska and Prince of Wales 
        Island.
    Pursuant to section 14(h)(8) of ANCSA, the U.S. Bureau of Land 
Management (BLM) has allocated about 310,000 acres for conveyance to 
Sealaska Corporation from lands withdrawn by Congress in 1971 from the 
Tongass National Forest. At this time, approximately 292,000 acres of 
this land entitlement have been conveyed to Sealaska. <SUP>3</SUP> 
Sealaska Corporation remaining entitlement under Section 14(h)(8) of 
ANCSA totals nearly 66,000 acres of land. 70 Fed. Reg. 77179-180 (Dec. 
29, 2005). This figure includes the approximately 22,000 acres 
remaining unconveyed from BLM's earlier allocation, as well as Sealaska 
Corporation per capita share of an additional 200,000 acres from the 2 
million acre pool of lands established by section 14(h) of ANCSA. BLM 
determined this
---------------------------------------------------------------------------
    \3\ 2007 USDA, Forest Service. Draft Environmental Impact Statement 
for Tongass Land Management Plan Amendment, EIS Appendix C at C-6.
---------------------------------------------------------------------------
    Under federal regulations, the regulatory deadline for Sealaska 
Corporation's applications for land selection under Section 14(h) 
occurred prior to BLM final allocation of available lands. See 43 
C.F.R. Sec. 2652.3 (BLM extended this deadline from December 18, 1975 
to September 18, 1978). To protect itself against potential loss of 
selection opportunities, Sealaska applied for more land than it would 
probably receive: about 171,000 acres from the lands withdrawn by 
Congress in ANCSA. See supra, note 2. By making excessive 
overselections, Sealaska gained extra time to evaluate the relative 
economic potential of various tracts and then reprioritize their 
selections accordingly. <SUP>4</SUP> These 171,000 acres of 
overselections are included within the 327,000 acres of unselected but 
encumbered federal lands withdrawn from the Tongass National Forest by 
Congress for selections by village and regional corporations in 
Southeast Alaska.
---------------------------------------------------------------------------
    \4\ See ANCSA 1985 Study at III-50.
---------------------------------------------------------------------------
    As noted above, notwithstanding the difficulties in applying the 
formulas specified in ANCSA for determining withdrawal areas in 
Southeast Alaska (primarily the steep geography of coastal Alaska), in 
general the valuable commercial forest land available for selection by 
Sealaska Corporation allowed this corporation to obtain substantial 
income from these lands. Section 2(a)(9) of H.R. 3560 asserts that 
``[a]s a result of its small land entitlement'' time is ``critical'' 
for Sealaska Corporation to complete its remaining land entitlement 
``under the Act.'' Yet, despite making previous overselections of lands 
with the areas withdrawn by Congress, it is not clear that Sealaska 
Corporation actually informed BLM which selections it wished to 
prioritize. Now, about 3 decades after overselecting available lands, 
Sealaska Corporation wishes to change the formula enacted by Congress 
and seeks different lands then previously approved by Congress.
    A comparison of the lands Sealaska Corporation wishes to obtain 
under Section 3(b)(1) of H.R. 3560, and the 327,000 acres remaining 
available for the corporation to select the balance of its entitlement, 
is instructive. Nearly one-third of the 327,000 acres are muskeg or 
nonforested lands. While 85 percent of these lands are currently 
unroaded, they do not represent intact forested watersheds. Instead 
they are the generally those portions of selected watersheds above 800 
feet in elevation, with the lower, more productive portions of the 
watershed already heavily cut by Sealaska Corporation. Only 9 percent 
of these lands are classified as big tree forests (stands of productive 
old growth (POG) with more than 30,000 board feet per acre). On the 
other hand, well over half of the lands within the pool of about 50,000 
acres of out-of-withdrawal selections sought by Sealaska for intensive 
timber development are inventoried as big tree forests. These lands 
include some with the highest biological values represented by salmon, 
deer, black bears, large-tree old growth, marbled murrelets, and 
estuaries on the Tongass. <SUP>5</SUP>
---------------------------------------------------------------------------
    \5\ Schoen, John and Erin Dovichin, eds. 2007. The coastal forests 
and mountain ecoregion of southeastern Alaska and the Tongass National 
Forest. Audubon Alaska and The Nature Conservancy, 715 L Street, 
Anchorage, Alaska. This complete report is available online at: http://
conserveonline.org/workspaces/akcfm
---------------------------------------------------------------------------
    The chart below, created using existing Forest Service data for 
Prince of Wales Island, shows that H.R. 3560 would authorize conveyance 
of over half of the remaining large tree POG on Prince of Wales Island 
to Sealaska Corporation.
[GRAPHIC] [TIFF OMITTED] 38971.001

    .epsThe communities of Port Protection, Point Baker, and Edna Bay 
have strenuously objected to conveyance of any of the proposed 
``economic development'' parcels on North Prince of Wales and Kosciusko 
Islands. These lands are important for subsistence and commercial uses 
for these communities. The community of Hydaburg has long fought to 
safeguard proposed ``economic development'' lands, which include Keete/
Nutkwa and Kassa Inlets and Mabel Bay. These lands were designated as 
part of the Nutkwa Wilderness in the 1989 House-passed version of the 
Tongass Timber Reform Act but left out of the final compromise 
legislation in 1990. Hydaburg and SEACC have consistently advocated for 
long-term protection for these lands ever since.
    The out-of-withdrawal selections targeted by Sealaska contain an 
extensive amount of extraordinary karst lands, including significant 
cave resources protected under the Federal Cave Resources Protection 
Act, on North Prince of Wales, Kosciusko, and Tuxekan Islands. Not only 
are these lands extremely productive, they are also important from 
paleontological, cultural, and geological/biological perspectives. For 
example, eleven (11) years ago, the Forest Service discovered human 
remains in On Your Knees cave on North Prince of Wales Island. DNA 
testing determined that these human remains were 10,300 years old. See 
Forest Service returns ancient human remains to Tlingit tribes, Juneau 
Empire (Oct. 21, 2007). <SUP>6</SUP>
---------------------------------------------------------------------------
    \6\ This story can be found on the web at http://
www.juneauempire.com/stories/102107/loc_20071021021.shtml.
---------------------------------------------------------------------------
    Finally, H.R. 3560 gives away far more than just acres of land. It 
also gives away valuable expensive infrastructure in the form of Forest 
Service roads funded by U.S. tax payers.
 Proposed Conveyance of Sacred, Cultural, Traditional, or Historic 
        Sites in Conservation System Units.
    Section 3(b)(2) of H.R. 3560 authorizes Sealaska Corporation to 
select as much as 3,600 acres of lands that qualify as sacred, 
cultural, traditional, or historic sites across the Tongass. Based on 
our review of the map accompanying the bill, multiple sites are located 
within Glacier Bay National Park and Klondike Gold Rush National 
Historical Park near Skagway. Other sites are located in areas 
designated as Wilderness and Legislated LUD II's on the Tongass, 
including the Admiralty Island National Monument Kootznoowoo 
Wilderness, South Baranof Wilderness, Tebenkof Bay Wilderness, Kuiu 
Wilderness, and South Prince of Wales Wilderness. Other sites are 
located in lands designated as Legislated LUD II areas by Congress in 
the 1990 Tongass Timber Reform Law to protect their wildland character, 
including the Berners Bay, Upper Hoonah Sound, and Nutkwa. No 
explanation is provided regarding why the conservation protections 
afforded by these designations are insufficient to safeguard the 
secrecy, solitude, and integrity of these sites. In addition, while 
Section 14(h) of ANCSA permitted selection of cultural and historical 
sites outside of the ANCSA withdrawal areas, such selections were 
limited to those public lands ``unreserved and unappropriated.'' 
Clearly, lands designated by Congress as Wilderness, National Park and 
Legislated LUD II qualify as reserved and appropriated public lands. We 
therefore see no need to amend ANCSA to allow for selection, and 
potential development of, these sites.
    We are also concerned with the lack of direction in the proposed 
bill regarding Sealaska Corporation's consultation with affected clans/
tribes concerning management/ development of these sites. In addition, 
development activities on sacred, cultural, and historic sites are 
subject to consultation with the State of Alaska Historic Preservation 
Office. The technical amendment to the National Historic Preservation 
Act in section 5(c) of H.R. 3560 would classify these sites as 
``tribal'' and therefore remove any requirement to consult with the 
State Historic Preservation Office.
    Another significant concern we have with H.R. 3560 is the proposed 
termination of existing restrictive covenants on cultural or historic 
sites already conveyed to Sealaska Corporation in section 4(g). Section 
4(h) would impose a covenant prohibiting any commercial timber harvest, 
but prohibit imposition of any other restrictive covenant. Current 
federal regulations, 43 C.F.R. Sec. Sec. 2653.5(a) & 2653.11, require 
sites that qualify and are conveyed for cemetery sites or historical 
places contain a covenant prohibiting mining or mineral activities of 
any type and ``use which is incompatible with or in derogation of the 
values of the area as a cemetery site or historical place.'' We don't 
understand why such reservations are inconsistent with Sealaska 
Corporation's objectives for these sites.
    Finally, section 3(b)(A)(ii) would also convey lands 25 feet in 
width, together with one-acre sites at each terminus, for three (3) 
identified ``Traditional and Customary Trade and Migration Routes.'' 
Initially, we have some concerns about how these routes will affect 
management of adjacent national forest lands, such as the Yakutat 
Forelands Legislated LUD II area, and public access and use of these 
and adjacent public lands.
 Proposed Conveyance of Identified Native Enterprise Sites Could Cause 
        Dramatic Changes in Land Use Patterns and Spark Controversy.
    Section 3(b)(3) authorizes the conveyance of as much as 5,000 acres 
of land for ``Native enterprise sites'' across the Tongass National 
Forest for economic development purposes other than commercial timber 
harvest. The definition in H.R. 3560 of these ``enterprise sites'' is 
unclear. We are concerned about what activities will or will not be 
allowed on them, as well as how conveyance of these sites, and 
accompanying nonexclusive access and use right, will affect public use 
and access to popular use areas. For example, will this allow for large 
lodges, upscale marinas, or other industries in areas that are 
currently wild and remote? Furthermore, these ``enterprise sites'' have 
not been fully vetted with Southeast Alaskan communities. Based on our 
knowledge and experience, they will likely create conflicts with 
charters, commercial and sport fishing groups, hunting guides, existing 
tour operators, and residents who use these popular areas for camping, 
hunting, and fishing. Tourism and tourism related jobs employed nearly 
6,000 people in the region in 2005. Many of these businesses are family 
owned and operated. Sealaska Corporation's ``enterprise sites'' could 
have a substantial negative impact on existing locally owned and 
operated businesses.
    While as a general concept enterprise zones are worth discussing 
further, we believe it is more appropriate to locate such zones within 
or adjacent to existing Native corporation land. With very few 
exceptions, the proposed enterprise zones are well known and well-loved 
by people throughout Southeast Alaska. The proposed enterprise zones 
are located adjacent to highly popular areas used by local community 
members for recreational, commercial and subsistence purposes. 
Conveyance of these lands to Sealaska Corporation could cause dramatic 
changes in land use patterns and spark controversy. For example, Sitka 
residents are concerned about proposed sites are already generating 
controversy including Poison Cove in Peril Straits, Big Bay near 
Goddard Hot Springs, Kalinin Bay at the north end of Kruzof Island, and 
Crab Bay in Tenakee Inlet. The community of Edna Bay has expressed 
opposition to conveyance of any lands at Cape Pole, on Kosciusko 
Island. The proposed site at Dog Cove near the Naha Legislated LUD II 
Area is a highly popular area near Ketchikan. The proposed site at 
Madan Bay is also in a highly used area by residents of Wrangell.
 H.R. 3560 Lacks a Meaningful Conservation Component.
    When it enacted ANCSA in 1971, Congress included a provision 
requiring the Secretary of Interior to withdraw from all forms of 
appropriations up to 80 million acres of unreserved federal lands in 
Alaska and make recommendations for designating suitable lands as 
conservation system units. See 43 U.S.C.A Sec. 1616(d)(2). Given the 
significant amendments proposed to ANCSA by H.R. 3560, we believe it 
appropriate to amend the bill to incorporate a meaningful conservation 
component. For example, Congress could:
    <bullet>  Expand the Calder/Holbrook Legislated LUD II by including 
portions of Kosciusko (Trout Creek along South Shipley Bay/VCUs 541, 
547, and partial VCU 543) and 4 small pieces along El Capitan Passage 
on the eastern end of the Calder/Holbrook Legislated LUD II area** 
(VCUs 5372, 5420, 5490, and partial VCU 5360);
    <bullet>  Expand the Nutkwa Legislated LUD II south of Hydaburg by 
including Hetta Lake (partial VCU 673.2, 673.1), Hetta Peninsula/Nutkwa 
Falls (partial VCU 673.2 & 685), Keete, Kassa, & Mabel Bays (VCUs 685, 
688, 689);
    <bullet>  Permanently protect a karst island, such as Heceta 
Island, to safeguard significant karst and cave resources;
    <bullet>  End commercial logging and road building on North Prince 
of Wales Island except for activities associated with restoring 
previously logged lands or rehabilitating lost wildlife habitat.
    In conclusion, we respectfully request the Natural Resource 
Committee to carry out a deliberate and careful scrutiny of this 
complex piece of legislation and resolve our unanswered questions, as 
well as those posed by others. We further urge the Committee to assure 
that efforts to finalize Sealaska Corporation's land entitlement under 
ANCSA does not come at the expense of legitimate concerns of local 
communities and residents about the effect of such land conveyances on 
traditional community uses of affected public lands or threaten the 
integrity of the Tongass National Forest by privatizing public lands 
across the forest.
    Thank you the opportunity to make preliminary comments on this 
proposed legislation.
                                 ______
                                 

    ]Attachments follow:]
    [GRAPHIC] [TIFF OMITTED] 38971.002
    
    .eps[GRAPHIC] [TIFF OMITTED] 38971.003
    
    .eps[GRAPHIC] [TIFF OMITTED] 38971.004
    
    .eps[GRAPHIC] [TIFF OMITTED] 38971.005
    

    .epsThe Chairman. I will yield my time to the Ranking 
Member, Mr. Young.
    Mr. Young. Thank you, Mr. Chairman.
    Again, I do apologize to all the panels for the 
interruptions we have had today. We are going to have some 
votes here in a few minutes, so we will try to go through this.
    Byron, some groups and individuals in the southeast have 
expressed concern about this bill. Has Sealaska met with these 
groups?
    Mr. Mallott. Yes, and we intend to continue that process.
    I know that I am stating the obvious when I say that 
particularly in the Tongass National Forest, but also in all 
public lands in Alaska, but especially in the Tongass National 
Forest, every acre is precious to someone, and that is a 
fundamental reality that we have to deal with.
    We recognize that significant dialogue, continuing 
conversation, hopefully working together will get us where we 
need to get.
    Mr. Young. What about the benefits to Sealaska and its 
shareholders as a result of this timber development?
    Mr. Mallott. Well, certainly timber development thus far 
has been significant over essentially two generations of our 
peoples in bringing about economic opportunity.
    Sealaska itself, for example, as through its Sealaska 
Heritage Institute, expended millions in scholarships. We have 
funded a full range of cultural and tribal and other kinds of 
development, as I mentioned earlier.
    Seventy percent of the profits from the timber resource 
development within our region have gone to other regions. We 
expect to continue to harvest timber, but in this bill, Mr. 
Chairman and Congressman Young, we seek to select out of 
withdrawals.
    As I said, no one has spent much time looking at what 
Sealaska leaves essentially on the table in our existing 
withdrawal areas. Intact watersheds, roadless areas, 
significant stands of old growth forests where some 55 percent, 
if I recall correctly, of the lands that we seek out of our 
withdrawal areas are already roaded, have already been 
harvested, and Sealaska is willing to postpone for decades 
harvesting that timber in order to hopefully over time develop 
a transition to a different kind of timber industry that is 
more responsive to a broad range of public policy interests.
    Mr. Young. That is why you are giving up the opportunity of 
the old growth to select the precut areas that are eroded and 
covered, if they even have been put to bed, because in the long 
term that will be more beneficial than going into the old 
growth timber?
    Mr. Mallott. Well, in terms of the public interest, yes, 
and in terms of our own sensitivities and aspirations as a 
people already our forested lands have placed almost a third in 
protected categories on our own lands.
    Mr. Young. But what I am getting across is again, and I 
don't have time to ask everybody questions, but what I can't 
understand, for instance, is Buck objects to this, but it is 
land that has already been cut. Is that correct?
    Mr. Mallott. Yes.
    Mr. Young. I don't understand that because I have also 
heard people say from SEACC we have to protect the old growth 
timber. You can't invade the old growth timber. We have to 
protect our watersheds.
    And yet you are doing that with this bill. You are 
selecting those lands that have already been violated, if you 
want to call it, for future investment for Sealaska.
    Mr. Mallott. Yes, sir. I don't understand Buck either, and 
I look forward to the opportunity to educate him.
    Mr. Young. Good. Well, you know, I have fought this battle 
for a long time.
    Just to give you some examples, because of the activity of 
SEACC, we have Angoon with an unemployment rate of 87 percent 
and Hoonah with 75 percent--that is SEACC's responsibility--
Hydaburg, 90 percent; Kake, 75 percent; Kasaan, 49 percent; 
Klawock, 59 percent; Klukwan, 88 percent; Saxman, 71 percent; 
Yakutat, 49 percent; and even Ketchikan now a 23 percent 
unemployment rate. I remember when everybody was employed in 
Ketchikan.
    I was told by SEACC at that time don't worry. We are going 
to work with the timber industry. We will make it work. That 
was many, many years ago, and still I see they are opposed to 
even the new timber.
    The last question I have for you, Byron, is about these 
cultural sites. The Administration came out against you picking 
cultural sites. Now, it is your culture, correct?
    Mr. Mallott. Yes, sir.
    Mr. Young. Why would they think that they could protect it 
better? You have already recited that there has been defamation 
of it and some of it has been used for probably capital gains 
for the Service. Why shouldn't you have that?
    Mr. Mallott. Well, we believe that we should. As I 
emphasized earlier, we had for a long time no particular 
opposition to Federal management of sacred sites. As a matter 
of fact, we tried to keep knowledge of sacred sites as much a 
secret as possible, which has led to some concerns and even 
questioning our management practices.
    What has happened is that more and more those sites are 
becoming public knowledge, and we are concerned about their 
future safety, their future maintenance as such sites, and we 
believe that we have the ability to manage those sites as 
Native sites with much more knowledge and obviously tradition 
history than any Federal agency.
    Mr. Young. Do you have any plans to develop economic 
endeavors on these cultural sites, sacred sites?
    Mr. Mallott. No, sir.
    Mr. Young. All right. Did any of the national park units 
exist prior to your people's historic, traditional and cultural 
connections with sites within the unit? There were no national 
parks, were there?
    Mr. Mallott. These sites have been in existence for many, 
many generations in the past, some for thousands of years.
    I know of no specific site that would have been identified 
and utilized after any Federal classification was made in the 
Tongass National Forest.
    Mr. Young. Chris, you are the President of Sealaska 
Corporation?
    Mr. McNeil. Yes, I am.
    Mr. Young. You said you guess, or yes, I am?
    Mr. McNeil. No. I said yes, I am.
    Mr. Young. OK.
    [Laughter.]
    Mr. Young. Economically how many acres are we talking 
about?
    Mr. McNeil. We are talking about as much as 85,000 acres.
    Mr. Young. And that is land that you have a right to 
select?
    Mr. McNeil. That is right. What we would be relinquishing 
and releasing is 277,000 acres.
    Mr. Young. I want to state that for the record. You would 
select 85,000 and relinquish how much?
    Mr. McNeil. Two hundred seventy-seven thousand.
    Mr. Young. And that is in old growth timber?
    Mr. McNeil. That is old growth timber.
    Mr. Young. And that is the valuable timber, according to 
SEACC?
    Mr. McNeil. Yes.
    Mr. Young. So you are giving up 85,000. Are you giving up 
about twice as much land for what you are getting?
    Mr. McNeil. Yes, that is correct.
    Mr. Young. And that is a good deal?
    Mr. McNeil. We believe that it is in the national interest 
to be able to do that, yes.
    Mr. Young. That is in Sealaska's interest?
    Mr. McNeil. Yes.
    Mr. Young. You don't invade any of those great, great trees 
that are dying, and you don't invade the rain forest and all 
the other good stuff that SEACC has protected all this time? 
You don't do that? You give up 285,000 acres?
    Mr. McNeil. Yes.
    Mr. Young. In old growth?
    Mr. McNeil. We believe on a net basis that is so. Yes, that 
is correct.
    Mr. Young. Mr. Chairman, I think this is a better deal than 
we had for the Izembek Road.
    I mean, I think it is a bad deal for Sealaska. If I was 
Sealaska, I would go into the old growth. Not for you, Buck, 
and for you, Don. I would go into the old growth. You have been 
trying to protect everything. There is no timber industry left 
in the southeast. The new timber is going to be gone that they 
are trying to pick.
    We will probably develop another source of economy in the 
southeast because of the different timbers. Not a pulp timber. 
It will be soft timber. It could be managed. I am trying to 
talk the Forest Service into doing this right now and leasing 
those other areas or granting long-term leases on the rest of 
it. They have a right as the original inhabitants of that area 
to pick those lands and fulfill that obligation.
    It is a good thing I am not one of you down there because I 
think I would go in the old forest with a chainsaw in a 
heartbeat because what you are doing is wrong. What they are 
doing is right. It is good for the area. It is good for the 
community. It will give you some credibility.
    I suggest respectfully continue to meet with them, and we 
can find a solution to this problem.
    Mr. Chairman, do you have any questions?
    The Chairman. I have no questions, Don.
    Buck's name has been batted around here a bit, and he has 
not responded. I just want to give him a chance to respond.
    Mr. Young. I haven't asked him any questions.
    The Chairman. Oh.
    Mr. Young. Do you want to ask him a question?
    The Chairman. Buck, do you wish to respond?
    Mr. Lindekugel. Thank you, Mr. Chairman, Congressman Young.
    From the look-see that we have had, and I may ask Mr. 
Hernandez to share a little bit too, but from our analysis of 
the lands that are going to be relinquished by Sealaska and the 
lands that they are seeking to receive, they are correct.
    Some of the areas, some of the pool of lands that they are 
looking at selecting from, include areas that have already been 
cut under the former Ketchikan Pulp Company 50 year contract 
under national forest management under their standards and 
guidelines.
    That is a lot different than logging on private lands under 
the State Forest Practices Act in terms of fish habitat 
protection and wildlife protection.
    Mr. Young. Let us not go there because I don't want to get 
into a big argument. Let us not go there.
    Mr. Lindekugel. Fair enough, sir.
    Our analysis shows of the lands that Sealaska is 
considering, this pool of lands for economic development, 57 
percent of those lands are what would be called large tree old 
growth forest, the biggest trees left, and that is 
disproportionate to how much is actually remaining left on 
Prince of Wales due to national forest cutting and cutting on 
corporate lands, so one of our concerns is the disproportionate 
effect of logging the lands that Sealaska is seeking to log.
    If I could ask Mr. Hernandez--he is from one of the 
affected communities--to share some of his concerns on this 
bill?
    Mr. Hernandez. Thank you, Mr. Chairman, Mr. Young. I really 
appreciate the chance to weigh in in this discussion.
    It is totally wrong to characterize these lands that 
Sealaska proposes for selection as being primarily second 
growth timber. That is a total mischaracterization.
    Forest Service management mandates multiple use. These 
lands have been logged. There is a significant amount of old 
growth forest still available. It is some of the most highest 
value old growth forest left on Prince of Wales Island.
    The reason that forest still exists in its old growth state 
is because of, you know, citizens like myself working with the 
Forest Service to ensure that the multiple use management works 
to keep a healthy forest for wildlife habitat, essential fish 
habitat, and that is why it exists because people from my 
community have tried to ensure that it remains for the benefit 
of everybody that uses the forest.
    The acreage is significant. Buck has all the figures here. 
It is a significant portion of the remaining high value 
wildlife habitat which remains on Prince of Wales Island. All 
of the infrastructure is in place from previous logging. 
Sealaska Corporation gets the benefits of all the road building 
built by taxpayers' money.
    The Forest Service has over the years spent probably 
millions of dollars doing tree thinning, silviculture projects 
to enhance the timber value of the logging that would occur in 
the second growth state.
    My community has worked closely with the Forest Service in 
recent years to work on some rehabilitation projects because 
logging practices in the past have done damage to habitat, both 
fish habitat and wildlife habitat. The Forest Service 
recognizes that this is going to cost a lot of money for 
rehabilitation to bring some of this wildlife habitat into a 
better state. Sealaska Corporation will be under no obligation 
to do that type of wildlife and fisheries rehabilitation as 
private lands.
    These are just some of the issues that our community has 
with this proposal from Sealaska, and I think you need to hear 
that. Thank you.
    Mr. Young. Mr. Chairman?
    The Chairman. Yes?
    Mr. Young. I know for a fact that the Native people in 
southeast Alaska, although they have been accused of being bad 
stewards, are better stewards than the Federal government is. 
We are going to continue to work with these numbers. We may get 
a little more land. We may get a little more of the previously 
cut land.
    It is strange to me, Mr. Hernandez, that you would complain 
about taxpayers building roads, et cetera, et cetera, and now 
we want to do it and use them for the benefit of the Alaska 
Natives, and you object to that. You object to that, and yet 
you are for roadless areas and the old growth timber.
    Now, if they pick that old growth timber I believe they 
probably can build roads in that area and do more damage. They 
are willing to give up 285,000 acres. I don't understand the 
arithmetic. Can you explain to me the arithmetic?
    You said it is not good land? You say it is not valuable? 
It doesn't have water value, et cetera? You are willing to take 
and give up 285,000 acres for 82,000? That doesn't add up to 
me. Maybe your community, but it doesn't add up to me.
    Mr. Lindekugel. Mr. Chairman, was that a question?
    Mr. Young. No, that is not a question. We are out of here.
    The Chairman. We do have votes on the Floor, and the 
Committee is going to have to adjourn at this time.
    We thank you for your testimony. The Committee stands 
adjourned.
    [Whereupon, at 2:10 p.m. the Committee was adjourned.]
    [NOTE: Information submitted for the record by the 
individuals listed below has been retained in the Committee's 
official files.]
H.R. 2445
    <bullet>  Brown, Margaret, President and CEO, Cook Inlet Region, 
Inc.
    <bullet>  Kookesh, Hon. Albert, Alaska State Senator
H.R. 3350
    <bullet>  Brower, Margaret
    <bullet>  Burnell, George
    <bullet>  Davis, Herman, Sr.
    <bullet>  Dewey, Valerie
    <bullet>  Edwards, Lawrence
    <bullet>  Estabrook, John
    <bullet>  Gemmill, Margorie
    <bullet>  Gould, James
    <bullet>  Hess, Felix
    <bullet>  Johnson, Walter A.
    <bullet>  Lang, Gary
    <bullet>  Leighton, Robert
    <bullet>  Lindekugel, Buck
    <bullet>  Littlefield, Michael
    <bullet>  Logusak, Frank
    <bullet>  Martin, William E.
    <bullet>  Mathieson, Nelson Eddy
    <bullet>  Matsuno, Wesley I.
    <bullet>  Merculief, Terenty, Jr.
    <bullet>  Monroe, Nicholas
    <bullet>  Morry, Mark
    <bullet>  Native Village of Barrow-Inupiat Traditional Government
    <bullet>  Noratuk, Chunni
    <bullet>  Pilot Point Traditional Council
    <bullet>  Roehl, Henry
    <bullet>  Sifsof, Lawrence
    <bullet>  Sitka Tribe
    <bullet>  Suckling, Theodore
    <bullet>  Sutton, Elias
    <bullet>  Tanana Tribal Council
    <bullet>  Warner, Anthony
    <bullet>  Waskey, Mathew, Sr.
    <bullet>  Young, Lawrence
H.R. 3351
    <bullet>  Alqaaciq Tribal Government
    <bullet>  Atmautluak Traditional Council
    <bullet>  Chevak Native Village
    <bullet>  Eek Tradition Council
    <bullet>  Kasiguluk Traditional Council
    <bullet>  Kongiganak Traditional Council
    <bullet>  Native Village of Alakanuk
    <bullet>  Native Village of Kwigillingok
    <bullet>  Orutsararmiut Native Council
    <bullet>  Platinum Traditional Village
    <bullet>  Tuntutuliak Traditional Council
    <bullet>  Village of Kotlik
H.R. 3560
    <bullet>  Alaska Federation of Natives
    <bullet>  Alaska Forest Association
    <bullet>  Alaska Native Brotherhood and Sisterhood
    <bullet>  Alaska Wilderness League
    <bullet>  Cape Fox Corporation
    <bullet>  Craig Community Association
    <bullet>  Culp, Wanda J., Hoonah, Alaska
    <bullet>  Edna Bay Community
    <bullet>  Haida Corporation
    <bullet>  Hernandez, Don, Point Baker, Alaska
    <bullet>  Klawock Heenya Corporation
    <bullet>  LeCornu, Adrian and Vicki
    <bullet>  Mason, Jack M.
    <bullet>  National Parks Conservation Association
    <bullet>  Organized Village of Kasaan
    <bullet>  Organized Village of Saxman
    <bullet>  Point Baker Community Council
    <bullet>  Point Protection Community Association
    <bullet>  Sitka Tribe of Alaska
    <bullet>  Stein, Alan, Former Director of the Salmon Bay Protective 
Association
    <bullet>  Tlingit and Haida Indian Tribes of Alaska

                                 <all>

</pre></body></html>
